<html>
<title> - IMPEACHMENT ARTICLES REFERRED ON JOHN KOSKINEN (PART III)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    IMPEACHMENT ARTICLES REFERRED ON 
                        JOHN KOSKINEN (PART III)

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2016

                               __________

                           Serial No. 114-89

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                               ____________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
22-120 PDF                    WASHINGTON : 2016                      
      
________________________________________________________________________________________                       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>  
                       
                 
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 21, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     2

                                WITNESS

The Honorable John Koskinen, Commissioner, Internal Revenue 
  Service
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    78
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    83

 
       IMPEACHMENT ARTICLES REFERRED ON JOHN KOSKINEN (PART III)

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2016

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:07 a.m., in room 
2237, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Issa, Forbes, King, Franks, Gohmert, Jordan, Poe, 
Chaffetz, Marino, Gowdy, Labrador, Farenthold, Collins, 
DeSantis, Walters, Buck, Ratcliffe, Trott, Bishop, Conyers, 
Nadler, Lofgren, Jackson Lee, Cohen, Johnson, Chu, Deutch, 
Gutierrez, Bass, Richmond, DelBene, Jeffries, Cicilline, and 
Peters.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Zach Somers, Parliamentarian & General Counsel; Paul 
Taylor, Chief Counsel, Subcommittee on the Constitution and 
Civil Justice; (Minority) Perry Apelbaum, Staff Director & 
Chief Counsel; Danielle Brown, Parliamentarian & Chief 
Legislative Counsel; Aaron Hiller, Chief Oversight Counsel; 
David Greengrass, Counsel; and Veronica Eligan, Professional 
Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. Without objection, the Chair is authorized to 
declare a recess of the Committee at any time.
    We welcome everyone to this morning's hearing on the 
``Impeachment Articles Referred on John Koskinen (Part III),'' 
and I will begin by recognizing myself for an opening 
statement.
    The Constitution sets forth a system of checks and balances 
which grants each branch of government tools to help ensure 
that no one branch of government attains too much power. The 
legislative branch's tools include the power to write the laws, 
the power of the purse, the impeachment power, the power to 
censure, among others. These tools empower Congress to exert 
oversight over the executive and judicial branches, including 
rooting out corruption, fraud, and abuse by government 
officials, and taking further disciplinary action on behalf of 
the American people when warranted.
    The duty to serve as a check on the other branches, 
including against corruption and abuse, is a solemn one, and 
Congress does not and must not take this responsibility 
lightly. That is why this Committee has scheduled this hearing 
today.
    In 2013, the American people first learned that their own 
government had been singling out conservative groups for 
heightened review by the IRS as they applied for tax-exempt 
status. This IRS targeting scandal was nothing short of 
shocking. It was a political plan to silence the voices of 
groups representing millions of Americans. Conservative groups 
across the Nation were impacted by this targeting, resulting in 
lengthy paperwork requirements, overly burdensome information 
requests, and long, unwarranted delays in their applications.
    In the wake of this scandal, then-IRS official Lois Lerner 
stepped down from her position, but questions remain about the 
scope of the abuses by the IRS.
    The allegations of misconduct against Mr. Koskinen are 
serious and include the following. On his watch, volumes of 
information crucial to the investigation into the IRS targeting 
scandal were destroyed. Before the tapes were destroyed, 
congressional demands, including subpoenas for information 
about the IRS targeting scandal, went unanswered and were not 
complied with. Mr. Koskinen provided misleading testimony 
before the House Oversight and Government Reform Committee 
concerning IRS efforts to provide information to Congress.
    These are very serious allegations of misconduct, and this 
Committee has taken these allegations seriously. Over the past 
several months, this Committee has meticulously pored through 
thousands of pages of information produced by the investigation 
into this matter. On May 24, this Committee held a hearing at 
which the House Oversight and Government Reform Committee 
formally presented its findings and evidence to the Members of 
this Committee. Then, on June 22, this Committee held a second 
hearing to allow outside experts to assess and comment on the 
evidence presented to the Committee at its May 24, 2016, 
hearing and the options for a congressional response.
    Today we hold a third hearing and hear from Mr. Koskinen 
himself. I look forward to hearing from Mr. Koskinen today.
    It is now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte, Members.
    And I want to thank first Commissioner Koskinen for joining 
us today on short notice and under these unusual circumstances.
    Last week, a handful of my colleagues attempted to force a 
vote on your impeachment, and when it appeared that they would 
fall short of the necessary votes, that effort was abandoned 
and this hearing was scheduled instead.
    I hope that my colleagues now see what I see when I look 
back at the history of impeachment in the House of 
Representatives, which we all have an obligation to do. No 
matter how you feel about a particular official, no matter what 
we think of his or her agency, successful impeachments are 
bipartisan efforts, and partisan attacks cloaked in the 
impeachment process are doomed from the start.
    Mr. Chairman, the effort to impeach Commissioner Koskinen 
is destined to fail on both the merits and as a matter of 
process, and if they somehow force this measure to the floor 
again, I fear it will set a terrible precedent.
    On the merits, the commissioner's critics simply have not 
proved their case. In fact, every other investigation to have 
examined these facts has refuted the charges against 
Commissioner Koskinen. The Senate Finance Committee, in a 
report that serves as the only bipartisan account of the 
matter, found no evidence that the commissioner had intent to 
mislead Congress at any time.
    The Department of Justice ``found no evidence that any IRS 
official acted based on political, discriminatory, corrupt, or 
other inappropriate motives'' and, ``no evidence that any 
official attempted to obstruct justice.''
    The Treasury Inspector General for Tax Administration, 
again, found no evidence to show that IRS employees had been 
directed to destroy or hide information from Congress.
    Despite these findings, some Members continue to insist 
that the commissioner ``ordered 24,000 emails erased before 
Congress could review them.'' Citing zero evidence to back the 
claim, independent fact checkers rated this statement as 
categorically false.
    There is simply no evidence that the commissioner has acted 
with intentional bad faith in his leadership of the Internal 
Revenue Service. But even if there were some evidence of 
wrongdoing, the push to impeach the commissioner on the House 
floor without even basic due process in the Committee is wildly 
misguided.
    According to parliamentarians of the House past and 
present, the impeachment process does not begin until the House 
actually votes to authorize this Committee to investigate the 
charges. In other words, this is not an impeachment hearing. 
Merely including the word ``impeachment'' in the title doesn't 
do the job at all. And at an actual impeachment hearing, the 
commissioner would be represented by counsel and he would have 
the right to present evidence, the right to question the 
evidence presented against him.
    In this case, by contrast, the commissioner has been denied 
access to the transcripts of interviews conducted by the House 
Oversight Committee, even though we are told that those 
transcripts were key in forming the charges against him.
    Many Members of this Committee are in the same position, I 
might add. I am not alone in being skeptical of short process 
or noting the importance of a full and independent 
investigation by this Committee.
    In 2006, Mr. Sensenbrenner, the gentleman from Wisconsin, 
argued, ``Only after the House Judiciary Committee has 
conducted a fair, thorough, and detailed investigation will 
Committee Members be able to consider whether Articles of 
Impeachment might be warranted.''
    In 2010, Mr. Chairman, you expressed confidence in our 
impeachment task force, because it had conducted an exhaustive 
investigation. That investigation included, in your words, 
``reviewing the records of past proceedings, rooting out new 
evidence that was never considered in previous investigations, 
conducting numerous interviews and depositions with firsthand 
witnesses, and conducting hearings to take the testimony of 
firsthand witnesses and scholars.''
    All of that process is missing here. Yes, we have it within 
our power to skip these steps, but what kind of precedence does 
that set? Never in the history of this body have we impeached a 
government official without first proving that he has acted in 
deliberate bad faith. Never in modern practice have we declined 
to provide the accused with the most basic due process, the 
right to counsel, the right to present evidence, and the right 
to question the evidence against him.
    If the commissioner's critics have their way, I fear we 
will have a new rule going forward. The House may impeach any 
government official for any reason without supplying evidence 
of deliberate wrongdoing, without an independent investigation, 
and without regard to basic fairness toward the accused.
    Forcing a vote in this manner will certainly not result in 
the removal of the commissioner. Even if his critics succeed 
here, senators of both parties have already stated their intent 
to bury the matter. And in the process, I fear we will have 
stripped our responsibilities of their weight and dignity and 
turned impeachment from a constitutional check of last resort 
into a tool of political convenience, and I cannot accept that, 
and none of us should.
    Commissioner Koskinen, thank you again for your willingness 
to be here today. Stick to the law and the facts, and you will 
be fine.
    I yield back, Mr. Chairman, and I thank you.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Without objection, all other Members' opening statements 
will be made a part of the record.
    We welcome our distinguished witness.
    And, Commissioner, if you would please rise, I will begin 
by swearing you in.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you. Let the record show that the witness answered in 
the affirmative.
    Commissioner John Koskinen was sworn in as the 48th IRS 
commissioner on December 23, 2013. Prior to his appointment, 
Mr. Koskinen served as the nonexecutive chairman of Freddie Mac 
from 2008 to 2012 and as acting chief executive officer in 
2009. Previously, Mr. Koskinen served as president of the U.S. 
Soccer Foundation, deputy mayor and city administrator of 
Washington, D.C., assistant to the President, and chair of the 
President's Council on Year 2000 Conversion, and deputy 
director at the Office of Management and Budget. He holds a law 
degree from Yale University of Law and a bachelor's degree from 
Duke University.
    Mr. Koskinen, you are welcome. Your entire testimony will 
be made a part of the record, and we ask that you summarize 
your testimony in 5 minutes. Your written statement, as I said, 
will be made a part of the record. And you see a timing light 
on the table. Please help us. We have a lot of Members with a 
lot of questions to ask.

    TESTIMONY OF THE HONORABLE JOHN KOSKINEN, COMMISSIONER, 
                    INTERNAL REVENUE SERVICE

    Mr. Koskinen. Thank you. Good morning, Chairman Goodlatte, 
Ranking Member Conyers, Members of the Committee. Thank you for 
the opportunity to answer questions here today.
    I understand the extraordinary responsibilities entrusted 
to this Committee. I appreciate both your willingness to hear 
from me and the serious and fair-minded approach you have taken 
on this charge of----
    [Audio malfunction in hearing room.]
    Mr. Koskinen. All right. Does that count against my time?
    All right. Thanks. I will do my best today to answer your 
questions, and I am committed to full cooperation. I recognize 
the obligation all public servants share to be responsive to 
Congress to the best of our abilities. That means listening and 
responding to feedback and criticism, acknowledging mistakes, 
and working diligently to improve.
    Let me note at the outset how much I deeply regret our 
inability to bring the (c)(4) issue to a close in a way that 
satisfies all Americans and Members of Congress. I understand 
the level of suspicion and distrust caused by the IRS' failure 
to properly handle applications for social welfare status based 
solely on the names of the organizations.
    I took this job in large part to help restore confidence in 
the IRS and to ensure that the agency never returned to the 
unacceptable practices that had occurred before I arrived. I 
believe we have made real progress during my tenure in ending 
the practices that gave rise to the concerns, addressing 
operational weaknesses, creating a culture of risk management, 
and working to reassure taxpayers that our tax system treats 
taxpayers fairly.
    The tax system only works if taxpayers are confident that 
the IRS will treat them fairly and that it doesn't make any 
difference who they are, what organization or political party 
they belong to, or whom they voted for in the last election. 
This is an important principle to us at the IRS.
    And no one, in addition, should have to wait years for an 
answer to a question or a request for a determination of any 
kind.
    Congress also has a right to expect that reforms to restore 
the public's trust in a nonpartisan and effective IRS will be 
implemented fully. I have devoted my energies as commissioner 
to that goal, and the inspector general has acknowledged that 
real progress has been made in implementing all of his 
recommendations. For instance, the IRS eliminated long ago the 
use of the ``Be on the Lookout,'' or BOLO lists, as they are 
known, that had resulted in the improper scrutiny of a number 
of applicants as described in TIGTA's May 2013 report.
    Mr. Goodlatte. Mr. Commissioner, I recommend you suspend 
for the moment while we try to cure this problem.
    Mr. Koskinen. All right.
    [Audio malfunction in hearing room.]
    Mr. Koskinen. Well, let's see how we do.
    Mr. Goodlatte. Let's go ahead.
    Mr. Koskinen. All right. As I noted, we have eliminated the 
BOLO lists. The IRS has also offered an expedited approval 
process for organizations that experience delays in the 
processing of their applications for 501(c)(4) status.
    Continuing our efforts to restore public confidence in the 
IRS will remain my top priority every day that I am fortunate 
enough to continue to serve.
    I also understand there are significant remaining questions 
on the minds of some Members about the IRS response to 
congressional inquiries on my watch. I stand ready to answer 
these questions today.
    I responded honestly and in good faith as events unfolded, 
particularly in response to the discovery that Lois Lerner's 
hard drive had crashed in 2011. From the start, I directed IRS 
staff to cooperate fully with Congress and to recover lost 
information wherever possible, and I testified to the best of 
my knowledge.
    But the truth is, we did not succeed in preserving all of 
the information requested and some of my testimony later proved 
mistaken. I regret both of those failings.
    I can also tell you that, with the benefit of hindsight, 
even closer communication with Congress would have been 
advisable. But my commitment is and always has been to tell you 
and all Committees of the Congress the truth and to address 
issues head on.
    I accept that it is up to you to judge my overall record, 
but I believe that impeachment would be improper, it would 
create disincentives for many good people to serve, and it 
would slow the pace of reform and progress at the IRS.
    Again, I appreciate the opportunity to be here and look 
forward to answering your questions.
    [The prepared statement of Mr. Koskinen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
                               __________
                               
                                                         
    Mr. Goodlatte. Thank you, Commissioner.
    We will now proceed under the 5-minute rule with questions, 
and I will begin by recognizing myself.
    The report of investigation by the Treasury Inspector 
General for Tax Administration, or TIGTA, concludes in its 2015 
report regarding congressional requests for emails that, ``The 
investigation revealed that the IRS did not put forth an effort 
to uncover additional responsive emails. None of the IRS 
employees involved had been asked prior to the June 30, 2014, 
request from TIGTA to find any backup tapes or the server hard 
drives associated with the NCFB Exchange 2003 server, which 
would have contained responsive Lerner emails. The 
investigation determined that if the IRS would have conducted a 
search for the existence of backup tapes, they would have found 
the necessary backup tapes that contained Lerner's missing 
emails prior to when those tapes were degaussed in March 
2014.''
    Mr. Koskinen, is there anything inaccurate in that finding 
of the Treasury Inspector General for Tax Administration, and 
if so, what is inaccurate about it?
    Mr. Koskinen. No, nothing inaccurate in that. I would be 
happy to explain to you my understanding of how that happened, 
but the report is accurate.
    Mr. Goodlatte. Do you believe that it was the duty of the 
IRS commissioner to, as the Treasury Inspector General for Tax 
Administration stated, put forth an effort to uncover 
additional responsive emails to Congress' inquiries, yes or no?
    Mr. Koskinen. Yes.
    Mr. Goodlatte. The report of investigation by the Treasury 
Inspector General for Tax Administration also concluded in its 
2015 report as follows: ``The investigation revealed that the 
backup tapes were destroyed as a result of IRS management 
failing to ensure that a May 22, 2013, email directive from IRS 
chief technology officer concerning the preservation of 
electronic email media was fully understood and followed by all 
of the IRS employees responsible for handling and disposing of 
email backup media.''
    Is there anything inaccurate in that finding of the 
Treasury Inspector General for Tax Administration?
    Mr. Koskinen. No.
    Mr. Goodlatte. Do you believe that it was the duty of the 
IRS commissioner to, as the Treasury Inspector General for Tax 
Administration stated, to ensure that a May 22, 2013, email 
directive from IRS technology officer concerning the 
preservation of electronic email media was fully understood and 
followed by all of the IRS employees responsible for handling 
and disposing of email backup media? And I would appreciate a 
yes-or-no response to that.
    Mr. Koskinen. Yes, to the extent the IRS commissioner has 
control over that.
    Mr. Goodlatte. The official IRS Web site in its section 
describing you, Commissioner John Koskinen, states, ``Mr. 
Koskinen manages an agency of about 90,000 employees and a 
budget of approximately $10.9 billion.'' You are the top 
manager at the IRS, so when the Treasury Inspector General for 
Tax Administration concluded that the IRS did not put forth an 
effort to uncover additional responsive emails and that the 
backup tapes were destroyed as a result of IRS management 
failing, the inspector general was referring to you, the 
manager of the IRS. Is that correct?
    Mr. Koskinen. As the leader of the organization, I am 
responsible for the management of it. There are a lot of 
managers there, but ultimately any CEO, any director of the 
organization is responsible for its operations.
    Mr. Goodlatte. So after you received the congressional 
subpoena which affirmatively required that you protect all 
emails related to this subject, what affirmative steps did you 
take personally to ensure all responsive documents were 
preserved?
    Mr. Koskinen. I met with senior executives and was assured 
that an appropriate document retention order had been put out 
the prior year. The woman acting as my counsel at the time sent 
a follow-up memo in February to the IT department to remind 
them that they ensure that all of the available information be 
preserved, and I was assured that that was being done.
    Mr. Goodlatte. Did you send anyone to different locations 
where emails are degaussed or destroyed, if you will, and 
instruct them not to destroy any emails without first going 
through the persons responsible for your responsibility to 
respond to the subpoena and say, make sure that no emails are 
destroyed without first verifying that they are not related to 
this congressional subpoena?
    Mr. Koskinen. I did not personally do that. I was assured 
that managers understood the impact of the document retention 
request or order in 2013 before I arrived, and the follow-up in 
February 2014, I was assured, would make it clear to employees 
and managers everywhere to preserve documents. We were at that 
point 8 months into a massive document search, it seemed to me 
everybody would understand the goal. And the instruction to 
people was to produce all of the information as quickly as we 
could wherever it was.
    Mr. Goodlatte. But apparently that message didn't get to 
the people who actually do the work of destroying emails.
    Mr. Koskinen. It apparently got to everyone but two 
employees on the midnight shift in Martinsburg. And at the time 
that was revealed, which was a year after the hearings in 2014, 
I said that that was a mistake, it shouldn't have happened, and 
I took responsibility for it.
    Mr. Goodlatte. My time has expired. Thank you.
    The Chair recognizes the gentleman from Michigan for his 
questions.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    And welcome again to the Committee, sir.
    Yesterday, the Chairman and I received a letter from our 
colleagues and some 32 signatures.
    And I ask, Mr. Chairman, that this letter be made a part of 
the record.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    Mr. Conyers. Commissioner Koskinen, this letter cites the 
example of one of our colleagues who claims, ``The head of the 
IRS ordered 24,000 emails erased before Congress could review 
them.'' Commissioner, did you order the destruction of 24,000 
emails in an attempt to obstruct congressional investigators?
    Mr. Koskinen. I did not.
    Mr. Conyers. Of course you didn't. According to PolitiFact, 
there is no, zero evidence to support this claim.
    The letter also cites to an exchange of letters which J. 
Russell George, the Treasury Inspector General for Tax 
Administration.
    Mr. Chairman, I ask that this letter be made a part of the 
record as well.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    Mr. Conyers. Thank you.
    In 2015, the inspector general released a report that 
concluded no evidence was uncovered that any IRS employees had 
been directed to destroy or hide information from the Congress. 
This same conclusion was independently reached by the Senate 
Finance Committee and the Department of Justice. Last week, my 
colleagues wrote to the inspector general to ask him if he had 
obtained any evidence whatsoever over the past year to cause 
his office to change its conclusion. He responded within a day, 
and the answer was no.
    Commissioner Koskinen, to your knowledge, have any of the 
underlying facts changed since the Senate Finance Committee, 
the Department of Justice, and the Treasury inspector general 
concluded that there is no evidence of your intent to mislead 
Congress or obstruct the investigation?
    Mr. Koskinen. No.
    Mr. Conyers. I spoke earlier about the precedent of the 
House, which has always provided some basic due process to an 
accused official. For example, in 2010, we allowed Judge 
Porteous to submit evidence, call witnesses, and cross-examine 
others. In 1996, we allowed counsel for President Clinton to do 
the same. In 1874, this Committee allowed Secretary of War 
William Belknap the opportunity to explain, present witnesses, 
and cross-examine witnesses.
    But here in 2016, I understand that you have not been 
allowed to review the evidence against you. The Oversight 
Committee conducted over 50 transcribed interviews and claims 
that those interviews were key to forming the charges against 
you.
    Mr. Commissioner, have you asked to review these 
transcripts?
    Mr. Koskinen. We have.
    Mr. Conyers. Have you been given an opportunity to review 
them?
    Mr. Koskinen. No.
    Mr. Conyers. Do you believe they might include evidence 
that clears you of any of these charges?
    Mr. Koskinen. I do. If there were any evidence there that I 
had actually indicated or told anyone to impede the operations 
of the Congress, destroy, or mislead the Congress, I assume 
someone would have already quoted it. So I assume that those 50 
depositions would support the fact that I did nothing to impede 
the operation of the Congress, I gave no instructions to anyone 
to do anything other than fully cooperate with the requests of 
the Congress.
    Mr. Conyers. I thank you, sir, for your testimony.
    And, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Mr. Chairman, this Administration seems to have 
set a record for the number of agency heads who have wrongly 
deleted work-related emails, the number of Federal employees 
who have pled the Fifth Amendment to avoid incriminating 
themselves, and the number of officials who have failed to 
respond to lawfully served subpoenas.
    Even in this deplorable company, one agency stands out. The 
Internal Revenue Service targeted organizations solely on the 
basis of their conservative views. We expect this kind of 
behavior from dictatorships and totalitarian governments, not 
from the United States of America's Government. It represents a 
direct attack on freedom of religion, it represents a direct 
attack on freedom of speech, and thus an attack on our 
Constitution and our democracy.
    That this corruption of power continued unrestrained for 
several years can only lead to one conclusion: Such conduct is 
an abuse of office that was condoned by the Administration and 
warrants stiff penalties.
    Mr. Chairman, I will yield the balance of my time to the 
gentleman from Ohio, Jim Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    Mr. Koskinen, I am going to read from the articles of 
impeachment. On page 2, it says, ``On March 4, 2014, the 
Internal Revenue Service magnetically erased 422 backup 
tapes.'' Is that statement true?
    Mr. Koskinen. Yes.
    Mr. Jordan. Were you commissioner at the time that these 
tapes were erased?
    Mr. Koskinen. Yes.
    Mr. Jordan. Was there a subpoena in place for the very 
information that was erased?
    Mr. Koskinen. Yes.
    Mr. Jordan. More than one subpoena, right? There were two 
subpoenas.
    Mr. Koskinen. Well, the subpoenas asked for specific 
information. The assumption is that some of that information 
was on those tapes.
    Mr. Jordan. It is not the assumption. It was on those 
tapes, because it was from the critical time period when Ms. 
Lerner's hard drive had crashed.
    Mr. Koskinen, who is Kate Duvall?
    Mr. Koskinen. Pardon?
    Mr. Jordan. Who is Kate Duvall.
    Mr. Koskinen. Kate Duvall was serving as counselor of the 
commissioner.
    Mr. Jordan. When we got her bio, it said, counselor to the 
commissioner, said she advised on high-profile investigations, 
and she was a member of your senior management team. Is that 
accurate?
    Mr. Koskinen. Yes.
    Mr. Jordan. In her deposition in front of the Oversight 
Committee, Ms. Duvall said she learned on February 2, 2014, 
about Lois Lerner's computer crash and missing emails. So on 
February 2, the counselor to the commissioner, in senior 
management, working on high-profile investigations, learns 
evidence is missing, and 1 month later, March 4, the backup 
tapes that contain this evidence are destroyed.
    What a coincidence, Mr. Koskinen. One month after your top 
counselor learns Ms. Lerner's hard drive has crashed and there 
are missing emails, the backup tapes, the secondary source; the 
primary source is gone, a month later the backup tapes are 
destroyed.
    Now, here is what is also interesting. Those backup tapes 
were supposed to have been destroyed months and months 
beforehand, weren't they, Mr. Koskinen?
    Mr. Koskinen. Yes. And a large number of them had been 
destroyed in 2012 and 2013.
    Mr. Jordan. In fact, you testified to this. You said this. 
``Ms. Lerner''--this is testimony in front of the Oversight 
Committee--you said, ``Ms. Lerner's hard drive had crashed in 
June 2011. As a result, certain emails could not be retrieved. 
Recovery tapes containing data for that period no longer 
existed.'' False statement, they did, but they were supposed to 
have been erased. This data was retained on tapes for only 6 
months.
    So they were supposed to have been erased actually 2 years 
prior to the date that they were, but they somehow survived. 
They somehow survived. And then, exactly 1 month, 30 days, 
after your top counselor, Kate Duvall, in senior management, 
learns that the primary source, the emails, are missing, these 
backup tapes that have survived for 2 years suddenly get 
destroyed. And we are supposed to believe that is just a 
coincidence, that just happened by chance?
    Mr. Koskinen. The inspector general spent a year looking 
into exactly that subject and came up with the conclusion, 
after interviewing over 50 witnesses, that that was totally a 
mistake by two employees on the midnight shift in Martinsburg--
--
    Mr. Jordan. The old----
    Mr. Koskinen [continuing]. That no one had----
    Mr. Jordan. The old----
    Mr. Koskinen [continuing]. No one--I am sorry.
    Mr. Jordan. The old midnight shift guys in Martinsburg 
excuse. Okay.
    Mr. Koskinen. Well, that is the IG's report after a year.
    Mr. Jordan. Okay. Well, let me read one other statement to 
you, again from the articles of impeachment. This is only page 
3, article III. On June 20, 2014, Commissioner Koskinen 
testified, ``Since the start of this investigation, every email 
has been preserved, nothing has been lost, nothing has been 
destroyed.''
    Is that statement true, Mr. Koskinen?
    Mr. Koskinen. At the time, that was what I had been 
informed and what I believed. A year later, or 9 months----
    Mr. Jordan. Whoa----
    Mr. Koskinen. That was----
    Mr. Jordan. It could have been----
    Mr. Koskinen. It was----
    Mr. Jordan. It could not have been true at the time, 
because that says--the date is June 20, 2014.
    Mr. Koskinen. That is correct.
    Mr. Jordan. And you just told me on March 4, the first 
question I asked you, on March 4, 3 months before that, March 
4, 2014, that the IRS had destroyed 422 backup tapes.
    Mr. Koskinen. That is correct.
    Mr. Jordan. So how is this statement true that you made 
under oath to a congressional Committee?
    Mr. Koskinen. The statement was not correct in light of 
that evidence, which I did not know.
    Mr. Jordan. So the statement wasn't true?
    Mr. Koskinen. The statement I thought was true. It was not 
true on the basis of the evidence that we discovered later.
    Mr. Jordan. Mr. Chairman, this is the problem. You think 
about any of the folks we represent, any of the constituents I 
represent in the Fourth District of Ohio has this same fact 
pattern, where they lose documents and then a month later--they 
are being audited by the IRS, they lose documents, a month 
later they destroy the backup disk, and it is fine, they can 
get away with that?
    This is what so many Americans are frustrated about, this 
double standard. Mr. Koskinen can lose documents--excuse me--
the IRS can lose documents, then destroy the backup source, the 
backup tapes, and nothing happens. Any American, that happens 
to them, they are in big trouble, and everybody knows it.
    All we are asking is this guy no longer hold this office. 
That is all we are asking. And in light of this fact pattern, I 
think that is the least we can do.
    I yield back.
    Mr. Goodlatte. The time of the gentleman from Texas has 
expired.
    The gentleman from New York is recognized for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    In your opening statement, you mentioned reviewing 
thousands of pages of documents related to these charges. Does 
the Committee majority have access to the unedited transcripts 
of interviews conducted by the Oversight Committee?
    Mr. Goodlatte. You should direct your questions to the 
witness.
    Mr. Nadler. I am directing my question to the Chairman. 
Parliamentary inquiry. And please stop the clock. It is a 
parliamentary inquiry.
    Mr. Goodlatte. We do not think so, but----
    Mr. Nadler. You do not think that the majority has access.
    Mr. Goodlatte. No.
    Mr. Nadler. Well, I would request that the minority at 
least, if the majority wishes, that is your prerogative--that I 
request the minority have access to these documents.
    Mr. Goodlatte. The Chair will take your request under 
advisement as we ascertain whether or not your question is 
answered in the affirmative. If so, then we obviously think it 
should be.
    Mr. Nadler. We are going forward with impeachment hearings 
that are the purview of this Committee. I think this Committee 
ought to see all of the relevant evidence. But that is self-
evident.
    Let me just say before I ask Mr. Koskinen some questions 
that Mr. Jordan's questions--wasn't this true then, yes; did 
you know it was true then, no; did you tell the truth then as 
you knew it, yes--that fact pattern shows nothing about 
impeachment, obviously. All it shows is that he didn't know at 
the time he was asked the question. He told the truth as he 
then knew it.
    Mr. Koskinen, Commissioner, thank you for being here.
    The Senate Finance Committee, the Department of Justice, 
and the Treasury Inspector General for Tax Administration have 
all looked into the accusations against you and each of them 
has independently concluded there is no evidence to support 
these charges. Your critics have not made their case, nor do 
they have the votes to force impeachment on the House floor, 
and these proceedings are an obvious sham.
    But because you are an expert on tax policy, I do think it 
serves some purpose to shed some light and have you as the IRS 
commissioner understand some of the work of the IRS.
    Is there anything that would prohibit someone from 
releasing their tax returns if they want to because they are 
under audit?
    Mr. Koskinen. No.
    Mr. Nadler. Thank you. Now, President Nixon disclosed his 
tax returns while under IRS audit. Have the rules changed since 
then?
    Mr. Koskinen. No.
    Mr. Nadler. Can an individual use other people's money, run 
through a charitable foundation, to enrich himself or satisfy 
his personal debts or obligations?
    Mr. Koskinen. The rules are that would be personal 
inurement. No tax-exempt organization can benefit, use its 
funds to benefit any, in effect, insider.
    Mr. Nadler. Would the following factors affect the tax 
exemption of a foundation: If an individual used funds from his 
charitable foundation to purchase a $12,000 football helmet for 
himself signed by Tim Tebow, if an individual used $20,000 from 
the foundation to pay for a 6-foot-tall portrait of himself, if 
an individual used $100,000 of the foundation's money to cover 
part of a legal settlement after a dispute with a municipal 
government, or if he used $158,000 to settlement a dispute with 
a disgruntled participant at a celebrity golf tournament. Were 
any of those actions using tax-exempt foundation moneys 
improper, and if so, would they jeopardize the tax exemption of 
the foundation?
    Mr. Koskinen. I can't comment on individual----
    Mr. Issa. Mr. Chairman.
    Mr. Nadler. I would like him to answer the question, sir.
    Mr. Issa. Mr. Chairman, I object to the questioning, in 
that it is outside the scope of this hearing. Additionally, it 
is outside the scope and expertise of the witness.
    Mr. Nadler. That is not a proper parliamentary inquiry.
    Mr. Goodlatte. The rules of the Committee would permit the 
gentleman to ask the question, and the commissioner is 
requested to answer.
    Mr. Koskinen. Clearly, the general rules are understood 
that a 501(c)'s assets should not be used to benefit either a 
major contributor or anyone operating the entity. The 
particular facts and circumstances of any case would need to be 
reviewed carefully and----
    Mr. Nadler. Obviously. But if those were the facts that I 
just said, would they be improper?
    Mr. Koskinen. All I can tell you is that the rules are 
clear, and it would be up to a set of people who do this 
regularly at the IRS to investigate and make a determination as 
to whether, in fact, the tax exemption of that organization was 
still viable.
    Mr. Nadler. Thank you.
    Commissioner, in your opinion, if a fact pattern like this 
one were brought to the attention of the IRS and the IRS failed 
to investigate it, would that be a dereliction of duty or even 
an impeachable offense?
    Mr. Koskinen. The commissioner does not make a 
determination as to--about any audit or investigation. We get 
referrals, suggestions, sometimes might review urgings to look 
into a wide range of activities of not only tax-exempt 
organizations, but others. Those are referred to a detailed 
process internally----
    Mr. Nadler. Okay. Thank you.
    Mr. Koskinen [continuing]. And it is not my role to make 
that determination.
    Mr. Nadler. Thank you.
    I have one last question, and that is, at the time you were 
appointed by the President, why did he ask you to take--to come 
out of retirement and appoint you to the head of the IRS? What 
mission--what did he state--what mission did he give you?
    Mr. Koskinen. Actually, I did not talk to the President 
personally. I talked to Secretary Lew, who I knew from years 
ago, and White House personnel. And the reason I was asked was 
obvious: The IRS had made a terrible management mistake. I have 
spent 45 years of my career managing organizations under 
stress, including in the private sector and the public sector. 
And it was obvious to me just reading the paper that there was 
a problem that needed to be fixed, and I was honored to be 
asked and pleased to undertake the responsibility.
    Mr. Nadler. Thank you very much. My time has expired.
    Mr. Goodlatte. The gentleman from Ohio, Mr. Chabot, is 
recognized for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    You know, everybody is afraid the IRS, and no wonder. They 
can make your life a living hell if they want to. That is why 
it is so important that they play it straight, that they don't 
play favorites, that they don't play politics.
    Well, back in the years leading up to Barack Obama's 
reelection in 2012, the IRS did play politics. It intensely 
scrutinized conservative organizations, especially if they had 
the words ``tea'' and ``party'' in their title, and all but 
refused to grant them tax-exempt status. At the same time, the 
IRS freely granted such status to liberal organizations.
    Why would they do this? To give Barack Obama and his 
liberal allies the advantage in the upcoming election. And who 
ordered it? Well, Lois Lerner was the head of the exempt 
organizations unit of the IRS. She ordered it. But who above 
her told her to do it, and did it go all the way to the White 
House? We will never know, because she destroyed the evidence, 
then took the Fifth, and then the Obama Justice Department 
refused to prosecute her and find out the answers to these 
important questions.
    In many ways, this is a lot like what Hillary Clinton did. 
She destroyed the evidence. Evidence of her emails was sought 
by the FBI and by congressional Committees. Rather than comply, 
she had her emails destroyed and she lied about it. She even 
had the devices that stored the emails, multiple BlackBerrys 
and iPads, destroyed, some with a hammer. Yet the Obama 
administration Justice Department refused to prosecute her too.
    So, Mr. Commissioner, where do you come in? Well, when the 
selective targeting of conservative groups by the IRS story 
broke, President Obama feigned outrage, said the targeting was 
inexcusable, and declared that we needed ``new leadership that 
can help restore confidence going forward.'' So President Obama 
brought you in to head the IRS, supposedly to clean up the 
mess.
    Arguably, Commissioner Koskinen, you have made matters 
worse. How? Well, you testified before congressional Committees 
on multiple occasions, you made a number of important 
statements before Congress which turned out to be completely 
false, even though you were under oath. For example, in 
referring to Lois Lerner's emails, you stated, ``Since the 
start of this investigation, every email has been preserved, 
nothing has been lost, nothing has been destroyed.''
    This turned out to be completely untrue, of course. Lerner 
had tens of thousands of emails destroyed. And when you learned 
of this, rather than inform Congress, you failed to notify 
Congress for 4 months.
    Why in the world did you wait 4 months?
    Mr. Koskinen. Actually, I waited 2 months. I was advised of 
this situation in April. And the reason I waited, because I 
instructed people we needed to find as many of the emails from 
that period of the hard drive crash as we could. We found and 
produced 24,000 Lois Lerner emails from the period of her hard 
drive crash.
    She did not destroy the information. Thereafter, we 
produced another 50,000 emails. So the investigators, all six 
of them, had 78,000 Lois Lerner emails from the period of 2009 
to 2013.
    Mr. Chabot. Well, I would submit that you had a duty to 
inform Congress immediately when you learned that. But let me 
move on, because I have only have a minute.
    Mr. Koskinen. No, no. And I would agree. I have said that 
in retrospect, if I had it to do over again, in April, I would 
have contacted and advised Congress immediately. The delay 
didn't change any investigation, but I can understand the 
aggravation it caused in some areas. And if I had to do it 
again, I would actually advise the Congress that the hard 
drive--I knew the hard drive had crashed and had been advised 
of that. We were now going to try, as we did, to produce all of 
the emails we could from that period, and we actually produced 
24,000.
    Mr. Chabot. Thank you. Let me move on.
    Similarly, after you learned of the destruction of Lois 
Lerner's emails, you testified that the IRS went to great 
lengths to try to resurrect her emails by other means. This too 
turned out to be false. You and the IRS did very little to 
recover those destroyed emails.
    In fact, experts testified that there were six ways the IRS 
could have tried to reacquire the emails. You failed to even 
try five of the six techniques. You failed to look at the IRS' 
own backup tapes, you failed to look at the server, you failed 
to look at the backup server, you failed to look at the Lerner 
laptop, and you even failed to look at Lois Lerner's 
BlackBerry. So you really did very little to comply with that.
    My time is running out so let me just say this. What really 
makes me mad about this whole sorry episode is that the IRS 
subpoenas information from taxpayers all the time, and if the 
average taxpayer exercised the same lack of cooperation that 
the IRS displayed in this matter, that taxpayer would be in a 
world of trouble. That taxpayer would undoubtedly have been 
prosecuted, likely convicted, and likely would have spent time 
behind bars.
    But in this case, it was the Obama administration's 
powerful IRS that got caught with its hand in the cookie jar. 
And you circled the wagons and clammed up and you took the 
Fifth and you destroyed evidence and betrayed the country, and 
most sadly, got away with it.
    And my time has expired, so I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentlewoman from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I am really astonished by some of the reckless statements 
that have been made this morning. But let me just go to the 
commissioner.
    You are under oath right now, right? You have to tell us 
the truth.
    Mr. Koskinen. Yes.
    Ms. Lofgren. And we have had an IG report basically 
pointing out that when you testified before to a congressional 
Committee you told the truth as you knew it at the time, and 
later there was information that you didn't know that came out 
that you sent to us. Is that correct?
    Mr. Koskinen. Correct.
    Ms. Lofgren. So I guess my question is, if you take a look 
at the Constitution, Article II, Section 4, it says,
    ``The President, Vice President and all civil Officers of 
the United States, shall be removed from Office on Impeachment 
for, and Conviction of, Treason, Bribery, or other High Crimes 
and Misdemeanors.''
    Now, I realize you are not here as an expert on 
constitutional law, but you are a lawyer and you went to a very 
fine law school. Can you tell me which element of that, 
treason, bribery, or other high crimes and misdemeanors, that 
you have committed?
    Mr. Koskinen. My position and that of my lawyers is I have 
not committed any of those crimes. But, again, I recognize this 
Committee has already heard from constitutional experts, and it 
is this Committee's decision.
    Ms. Lofgren. No, I understand that. But I just think this 
is a trumped-up type of thing. Having worked on many 
impeachments in the past, this doesn't even pass the smell 
test. This is absurd.
    I would like to also ask, since you are here, and we are 
not on the Financial Services Committee, is it within the 
authority of the commissioner to suspend an audit of a taxpayer 
during the course of a Presidential campaign so that that 
taxpayer who felt that they were constrained in the release of 
their audit would then feel okay to release it?
    Mr. Koskinen. The IRS commissioner----
    Ms. Lofgren. Could you?
    Mr. Koskinen [continuing]. IRS commissioner has no 
authority over any individual audit or even the determination 
of whether an audit should begin, and I think that is 
appropriate.
    Ms. Lofgren. Let me ask you whether or not--I know that 
everything that the IRS does is private and that the staff 
takes that very seriously, and I think we all appreciate that. 
But let me ask you this. if an audit had been terminated, would 
that--would the commissioner or the agency be allowed to say 
publicly that there was, in fact, no audit going on of a 
taxpayer?
    Mr. Koskinen. We never would--do comment about any taxpayer 
situation, the status of whether they are under audit, whether 
the audit is continuing, or whether it is concluded. That is 
all taxpayer information that is protected.
    Ms. Lofgren. So even if there was nothing going on and 
somebody was lying about that, they would just get away with a 
lie?
    Mr. Koskinen. We would never comment on any taxpayer's 
situation with regard to audits or filings or what was in that 
information.
    Ms. Lofgren. I would like to talk about whether or not, if 
someone took money from a foreign government, say, Russia, and 
then decided as a candidate or an elected official to go easy 
on our opponent, would that, if they were elected, an elected 
official, would that fall into the realm in the Constitution of 
bribery or treason?
    Mr. Koskinen. I am not in a position to make a comment on 
that.
    Ms. Lofgren. Well, I just think that, you know, one of the 
things that should concern this Committee is the fact that one 
of our candidates for President has failed to provide 
transparency on his financial situation by releasing his tax 
returns, as every other candidate has this time and has for 
many, many decades. It leads to questions on the role that 
Russia is playing in his business, what that may lead him to do 
in terms of his extraordinary comments of praise for the 
Russian leader, who is a virtual dictator and certainly an 
adversary of the United States.
    And I would hope that this Committee might use some time to 
explore that possibility and to see if we couldn't get that 
candidate to do the right thing and let the American people 
know that he has been compromised financially with Russia, the 
foreign power who is causing so much problems in the world, in 
the Balkans, in Syria, and certainly elsewhere around the 
world.
    And with that, Mr. Chairman, I see my time has expired.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    The Chair recognizes the gentleman from California, Mr. 
Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman. And I will refrain from 
asking about large nonprofits that might have taken and been 
influenced by foreign government contributions. That would be 
too sensitive to Mrs. Clinton.
    Commissioner, our Founding Fathers did consider 
maladministration for impeachment and they decided that that 
was too low. Do you know of that from your readings?
    Mr. Koskinen. That is my understanding.
    Mr. Issa. And so I want to ask, very much along that, 
misdemeanors are in, maladministration is out.
    Now, I represent Camp Pendleton and 47,000 marines. 
Maladministration is what you get fired for if you are a 
colonel, a captain, a sergeant, or even a general, and that 
includes loss of confidence in being able to do the job, 
failure to essentially get your subordinates to follow your 
orders, failure to show the kind of zealous obedience for 
compliance with rules, regulations, and laws.
    These are two different standards, the standard between 
impeachment and the standard for relieving a senior officer or 
even a sergeant in the military. So I want to go through this, 
because I think, at a minimum, we should have a discussion 
about what actually occurred.
    You were under a subpoena, you were aware that we were 
looking for documents, you assured the Oversight Committee that 
you were using absolutely every possible tool to recover them. 
And so now the question. In retrospect, did you fail to use 
every tool, did you fail to ask the kinds of questions of 
enough people, enough experts to know that the BlackBerry that 
still existed at the time of the investigation would have had 
many of these lost emails, that the servers, the tapes, and 
other documents could have been recovered, as you eventually 
discovered? Would you say that that is a failure of yours that 
you will have to live with?
    Mr. Koskinen. No, we clearly failed. The BlackBerry was 
actually in the control of the IG from 2013 on. But as I have 
stated, we clearly failed in areas of preservation of 
documents, and I have said that was a mistake, and it was 
driven by the fact that we were spending, and I was told the 
group were looking every place they thought they would find the 
emails, and we found 1,300,000 pages of documents that were 
produced. It took us a year to do that. And that was where 
people thought the most likely place it was to come.
    The IG in his review of everything else found another 
thousand emails, a number of which were in the early 2000's, 
long before this held, but those thousand emails, if we would 
have had the technique and the time, would have been important 
to produce.
    But I would remind you that we did produce a phenomenal 
volume of stuff, with 250 people working every day. And from my 
standpoint, my commitment and order and instruction to people 
was to do everything possible to produce information for the 
Committee as fast as we could and as thoroughly as we could.
    Mr. Issa. Thank you.
    I would ask unanimous consent that the 226-page report 
chronicling the actions be placed in the record from the 
Oversight Committee.<greek-l>need report deg.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.*
---------------------------------------------------------------------------
    *Note: The submitted material is not printed in this hearing record 
but is on file with the Committee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105349
    Mr. Issa. Thank you.
    Commissioner, you know, obviously if we had to do this over 
again, we would all ask that it be done differently. But I am 
going to use the remainder of my time to ask you a more serious 
question.
    In light of the fact that agency heads generally make the 
decisions about subpoenas coming from Congress, and they lack, 
as you lack, in spite of all your experience, the expertise to 
know where to go, how to preserve documents, where the, if you 
will, all the places to make sure, the six different areas that 
could have been looked at and, according to the IG, were not 
looked at, five of them, do you think that Congress should 
insist on having a contact and responsible person in each 
agency that in fact could be held accountable because they had 
the expertise and could be reasonably expected to have the 
authority to enforce and deliver documents on behalf of 
lawfully submitted subpoenas?
    Mr. Koskinen. That is an interesting suggestion that I 
don't have the authority to respond to, but it would be helpful 
to reaffirm the commitment that we had at the IRS, which is if 
Congress asks, not whether, subpoena or not, if Congress asks 
for information, we have an obligation to provide it as quickly 
as we can as thoroughly as we can. And that is an obligation, 
as I say, it doesn't take a subpoena, that is an obligation we 
have to the Congress any time you ask us for a question.
    Mr. Issa. In my last few seconds, Lois Lerner was referred 
for a criminal indictment by the Ways and Means Committee under 
a statute that said that the U.S. attorney for the District of 
Columbia shall present to a grand jury, and the Administration 
failed to do that.
    In retrospect, when the American people expect somebody to 
be held accountable for the wrongful targeting of conservative 
groups, wouldn't it have gone a long way if the Justice 
Department had simply complied with the law rather than chose 
not to comply with the law?
    Mr. Koskinen. I can't speak for the Justice Department, but 
I can, as you know, remind you that from the commissioner on 
down, the acting commissioner on down, all five levels of 
people responsible in this area are no longer with the 
government, they are no longer with the IRS. They, in fact, no 
longer have their jobs.
    Mr. Issa. Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Let me thank you very much, Commissioner, 
and let me apologize for your presence here today. I realize 
that you have made a commitment as a public servant, but I 
think it is appropriate to apologize to you for what I believe 
is a nonserious effort as relates to the Constitution and the 
impeachment criteria.
    Saying that, let me take note of your language in your 
statement, which says, ``I will do my best today to answer your 
questions and I am committed to full cooperation...That means 
listening and responding to feedback and criticism, 
acknowledging mistakes, and working diligently to improve.'' Do 
you still adhere to that statement in your testimony?
    Mr. Koskinen. I do.
    Ms. Jackson Lee. So you are committed as a public servant 
to ensure that we get all the information that we need to have. 
Is that not correct?
    Mr. Koskinen. That is correct. I spent 4 years on the 
Senate side as the chief of staff to a senator who ultimately 
chaired the Oversight Committee in the Senate, and I fully 
understand and appreciate and think it is appropriate for 
agencies to respond as quickly as they can with all of the 
information requested.
    Ms. Jackson Lee. Thank you, Commissioner, very much.
    Let me put into the record a statement. The Senate Finance 
Committee, Department of Justice, and the Treasury Inspector 
General for Tax Administration found three points related to 
you, Commissioner, and that is that you had not misled 
Congress, you had not allowed evidence to be destroyed, at 
least it was not attributable to you, and you were not 
considered to have obstructed oversight of the IRS.
    Do you still believe that those were true about your 
actions as a commissioner?
    Mr. Koskinen. I do.
    Ms. Jackson Lee. Let me also put into the record a letter 
dated September 14 where a direct question was asked to the 
Treasury inspector general, no evidence was uncovered that any 
IRS employees have been directed to destroy or hide information 
from Congress, the DOJ, or the TIGTA. That letter was written 
by two Members of Congress on September 14, 2016. A letter came 
back from Mr. J. Russell George, inspector general, and it 
says, ``I received your letter and its conclusion that no 
evidence was uncovered that any IRS employees have been 
directed to destroy or hide information from Congress, the DOJ, 
or TIGTA. In your letter, you specifically asked: Since issuing 
this report, has your office changed its previous conclusion on 
this matter? At this time, no additional information has been 
uncovered that changes our conclusion in this report.''
    I ask unanimous consent to put this in the record.
    Commissioner, do you adhere to that letter from the 
inspector general?
    Mr. Goodlatte. Without objection, the document will be made 
a part of the record.
    Ms. Jackson Lee. You have seen such reports from the 
inspector general, have you not?
    Mr. Koskinen. Yes.
    Ms. Jackson Lee. And do you adhere or at least understand 
that that is being said about IRS employees, which would 
include yourself?
    Mr. Koskinen. Yes.
    Ms. Jackson Lee. Right. Do you--was Ms. Lerner at the IRS 
when you arrived?
    Mr. Koskinen. She was gone. I have never actually met her 
or talked to her.
    Ms. Jackson Lee. Are you still engaging in ``Be On The 
Lookout'' activities?
    Mr. Koskinen. We have not used ``Be On The Lookout'' 
activity numbers for 3 years or longer.
    Ms. Jackson Lee. I think it is also important to note, 
again, that this is not an impeachment hearing. And even though 
many of our Members are inquiring in that manner, it is not.
    And it is also important to note that experts have said we 
have not given you due process. I hope as we proceed to 
eliminate this proceeding, meaning to cease and desist, that if 
we do not, that you will have due process.
    Let me proceed with some questions regarding the time that 
you have come after February 2014. What efforts have you made 
to be constructive and to provide information to Members of 
Congress?
    Mr. Koskinen. Across the board, I have made a commitment 
that we will respond to every request. I will personally 
respond to every letter within 30 days, if at all possible, and 
I will explain if it is not. As a general matter, over 90 
percent of inquiries get a response from me within 90 days. We 
have not refused to provide any information. We are anxious 
across the board. The IRS affects every taxpayer in the 
country, and it is important for us to be transparent.
    Ms. Jackson Lee. Thank you.
    And in this proceeding, dealing with impeachment, if it is 
not high crimes or misdemeanor, there are elements that our 
friends believe that would suggest that you would be subjected 
to impeachment proceedings. And so is there anything that you 
have done that can show deliberate bad faith? You are a lawyer. 
You are allowed to say that you think this action or that 
action--is there any action that may have done so?
    Mr. Koskinen. As I have said, we have--it was not a perfect 
process. There are things that, again, in retrospect----
    Ms. Jackson Lee. When you made mistakes, you owned up to 
it. Is that correct?
    Mr. Koskinen. Yeah. And basically there is no evidence that 
I have actually acted in bad faith, given anybody instruction 
not to comply.
    Ms. Jackson Lee. And you offered information when you found 
the information after the fact?
    Mr. Koskinen. And when we found the information. In fact, 
we spent a lot of time--again, I should have told Congress 
earlier, but we spent time finding the 24,000 emails.
    Ms. Jackson Lee. Let me ask you, this, Commissioner--I am 
sorry for talking over you. I am just trying to get in.
    Is it appropriate for a foundation to give political 
donations out of the foundation, a 501(c)(3) foundation?
    Mr. Koskinen. 501(c)(3) organizations, foundations, 
otherwise are not allowed to participate in politics.
    Ms. Jackson Lee. I thank you very much, Commissioner. And I 
believe an apology is owed to you. And I believe that there are 
no grounds, if we were to move in that direction, for any form 
of impeachment. We need to thank you for your service. Continue 
to do the good work that you are doing, working on behalf of 
the American people and answering questions from Congress in 
the normal oversight responsibilities.
    Thank you. And I yield back.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    The Chair recognizes the gentleman from Virginia, Mr. 
Forbes, for 5 minutes.
    Mr. Forbes. Mr. Chairman, thank you.
    And, Mr. Commissioner, thank you for being here.
    As we sit here today, just bringing a little commonsense to 
this, a vast majority of Americans believe today that our 
country is headed in the wrong direction, and they want us, the 
people elected by them, just to fix it. And I want to go on 
record as saying I don't apologize for trying to fix it.
    And when I look here and I recognize that a vast majority 
of Americans no longer trust their government, that creates a 
crisis of confidence in our government. And they have a good 
reason to believe that. And I don't apologize for asking how we 
fix that, when I see gag orders issued by the Pentagon where 
they don't even allow individuals over there to testify or meet 
with Members of Congress, we see evidence that is being 
destroyed, we see misrepresentation of facts to Congress. That 
is something we should come together and try to fix.
    And so everybody has asked you what is appropriate, 
testimony from the other side. So I want to ask you this: What 
do you feel is appropriate as the IRS commissioner? Should you 
be held to a lower standard than the taxpayers subject to your 
jurisdiction, a higher standard, or the same standard? What do 
you think is appropriate for us to hold you to?
    Mr. Koskinen. I think I, like any public servant, should be 
held to the highest standards of probity. We should cooperate 
with----
    Mr. Forbes. Should you be held to at least an equal 
standard to taxpayers that are subject to your jurisdiction?
    Mr. Koskinen. Yes, I think we should be held to that 
standard or even higher.
    Mr. Forbes. And if that is the case, wouldn't you agree 
that if a taxpayer were sitting where you were sitting with the 
same responses that you are giving, that that taxpayer would be 
in a lot of trouble before the Internal Revenue Service?
    And let me just throw this out to you: If the facts show 
that you lied to Congress and I am not saying they did; if they 
show that you lied to Congress or that you mismanaged your 
office, what do you believe is appropriate for Congress to do 
to try to fix it? You have already said you don't think that 
impeachment is the right thing. What do you think is 
appropriate? Should we just do nothing and let that continue, 
or should we just keep coming back in here and saying, oh, we 
are not going to do it again?
    Mr. Koskinen. No. I have never objected to any of the 
hearings. I have had close to 40 hearings.
    Mr. Forbes. I am not talking about the hearings. I am 
talking about the conclusions from the hearings.
    Mr. Koskinen. Conclusions.
    Mr. Forbes. You said that you didn't think impeachment was 
appropriate. Mr. Jordan said he didn't think you should 
continue to hold that office. If a taxpayer were here, you said 
you should be held to the same standards as that taxpayer.
    Mr. Koskinen. Right. And if a taxpayer----
    Mr. Forbes. That taxpayer would have had to pay the IRS.
    Mr. Koskinen. If the taxpayer provided us information 
truthfully, did the best they could to produce information, and 
found that information was missing, the first thing we would do 
with that taxpayer is try to help them reconstruct those 
records.
    Mr. Forbes. Wait a minute. Wait a minute. You are not going 
to tell me that if a taxpayer comes to you and has filed a 
faulty tax return and then just says, oh, I am sorry, I didn't 
know that was the case, that you are going to let him off the 
hook?
    Mr. Koskinen. No. He has got to pay the taxes he owes. The 
question is whether----
    Mr. Forbes. What do you owe for misrepresenting something 
to Congress?
    And let me just say this to you, Mr. Commissioner: What 
incentive is it when you come here to testify before us if you 
can consistently just say, I don't know? Isn't it a great 
incentive for you not to do due diligence, to find out? You 
could have told the Committee I don't know, but when you make 
an affirmative statement, doesn't that put you under some 
responsibility to have made sure you have ascertained that?
    And the second thing, my friends on the other side of the 
aisle consistently love to say they didn't find any affirmative 
action that you did to order that information would be impeded 
from going to Congress. Don't you have an affirmative duty to 
do everything you can to make sure that doesn't take place?
    Mr. Koskinen. And duty to make sure the agency functions 
well, that that doesn't take place to the extent I can control 
it.
    Mr. Forbes. In hindsight, did you do everything you could 
do to find out if you were making accurate statements before 
Congress? And did you do everything you could do to make sure 
that evidence getting to Congress wasn't being impeded?
    Mr. Koskinen. I do in retrospect. The erasure of those 
tapes was not known until well after my hearings and it is----
    Mr. Forbes. That is not my question. My question is----
    Mr. Koskinen. Well, the answer is, I couldn't tell the 
Committee things I didn't know. All I could tell the Committee 
in honesty and good faith was what I knew. And what I knew is 
what I told the Committee. When later information--a year later 
in terms of the tapes came out--I said that was a mistake and 
we should be----
    Mr. Forbes. Did you do everything within your power to find 
that information? You said you were given assurances. Is that 
what you just relied on, that one person told you that?
    Mr. Koskinen. I know I have--we have a large number of 
executives that I have great confidence in, and when they tell 
me that, in fact, they are doing their best to produce all of 
their relevant evidence----
    Mr. Forbes. So you just can rely on those experts to tell 
you that, and that is enough for you?
    I just close by saying, Mr. Chairman, the commissioner says 
he should be the same standard of the taxpayer. If a taxpayer 
was sitting there, Mr. Commissioner, I think you know, he would 
be in a world of hurt.
    And with that, I yield back, Mr. Chair.
    Mr. Goodlatte. The Chair thanks the gentleman. Recognizes 
the gentleman from Tennessee, Mr. Cohen, for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    And firstly, I welcome you. I know you would rather be 
other places, and I probably wish you were other places too. 
But you are here. And this has all the trappings of 
impeachment, and that is kind of a sexy thing, so to speak, in 
political parlance.
    But the constitutional standard for impeachment that this 
Committee considers is high crimes or misdemeanors. And I know 
that has been discussed today. The question is not whether you, 
Commissioner, have been a perfect administrator--and I am not 
saying you haven't--that is a question for the Ways and Means 
Committee to decide--they oversee the IRS--and for the 
President who appointed you, not for this Committee.
    The question we are called upon in this context is to 
decide whether it have been high crimes or misdemeanors that 
warrant the extraordinary constitutional remedy of impeachment. 
And that would be high crimes or misdemeanors that you have 
committed, not that maybe people think your office or your 
predecessors committed.
    We heard in our last hearing that although high crimes and 
misdemeanors need not be limited to criminal acts, the 
commissioner's critics still need to show that he acted with 
the some deliberate bad faith. They have not done so, and every 
other investigator who has looked at these facts--the Treasury 
inspector general, the Department of Justice, the Senate 
Finance Committee--have reached the same conclusion.
    So it is regretful that you are here. But since you are 
here, I want to ask you this: Has the Internal Revenue Service 
been funded adequately to perform its job of catching tax 
cheats, and by catching tax cheats and/or the threat thereof 
gotten the revenues that are necessary to provide the services 
that government should be rendering?
    Mr. Koskinen. No.
    Mr. Cohen. How much has the IRS budget been cut recently?
    Mr. Koskinen. The IRS budget since 2010 has been cut $900 
million, even as we have 10 million more taxpayers and a wide 
range of statutory mandates to implement.
    Mr. Cohen. Has been cut $900 million, is that what you 
said?
    Mr. Koskinen. Yes, our budget today is $900 million less 
than it was 6 years ago.
    Mr. Cohen. Has anybody taken that figure and said that when 
you cut the IRS $900 million how much revenue is lost because 
of the lack of ability to audit----
    Mr. Koskinen. We estimate and have provided that 
information to Congress that we are leaving $5 billion a year 
on the table, and it is not a guess as to--we might find 
people. It is $5 billion in audits that we can't undertake when 
we know there are difficulties.
    Mr. Cohen. So we cut $900 million. We haven't saved $900 
million. We have lost $4.1 billion?
    Mr. Koskinen. Correct.
    Mr. Cohen. Does that contribute to the deficit?
    Mr. Koskinen. Yes.
    Mr. Cohen. And if you cut IRS by that much money--and you 
all are kind of the whipping boy of the--my friends on the 
other side of the aisle, who don't like or think the government 
services are so necessary--the government has to fund 
entitlements, quote/unquote.
    So if you don't have the money and we lose $4.1 billion, we 
are hurting the person at the bottom, the people that need 
government assistance. It is not an entitlement, whether it be 
SNAP payments, or it is energy, LIHEAP, folks not getting 
through the winters without freezing, they are not getting 
enough food for their children, our public schools or maybe 
even public health, the CDC and the NIH which is looking for 
cures for cancer, and Alzheimer's, and diabetes, and heart 
disease, and stroke, and all the other diseases that are coming 
to get each and every one of us, one day.
    Those folks are getting hurt. When they attack you, they 
are attacking the NIH, they are attacking the CDC, they are 
attacking people who need SNAP payments to ease hunger and 
their children and WIC payments and public education and public 
health. Is that not true?
    Mr. Koskinen. Well, I am not an expert of where the money 
would go, but clearly there is less money to be provided or 
appropriated or to cut the deficit.
    Mr. Cohen. Well, it is just incredulous to me. You have 
done nothing to warrant this hearing, but your office is under 
attack because government is under attack, and the government 
that is under attack is the government that takes care of the 
poorest and the least of these. Those that would be the most 
precious in the eyes of people who look at humanity as--at a 
sight of seeing how we treat others, and if we treat others as 
we should treat ourselves and follow the Golden Rule. And that 
is unfortunate.
    And with that, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognizes the gentleman from Iowa, Mr. King, for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    And, Commissioner, I thank you for coming here to testify. 
I think this is important discussion this country is having 
right now about our reliability within our government agencies.
    And the first question from me would be, did Lois Lerner 
have any kind of a software package or any kind of electronic 
search that excluded or identified the conservative groups that 
far outweighed the nonconservative groups that had asked for 
the not-for-profit status?
    Mr. Koskinen. Yes. Clearly, all of this started with the IG 
report noting that--he called it improper criteria. They were 
totally improper criteria were used to select organizations 
applying for (c)4 designation for further review. Those 
organizations predominantly were conservative organizations.
    Mr. King. Was there an electronic system that sorted out 
these applications?
    Mr. Koskinen. No.
    Mr. King. Was there any database, any matrix of any kind, 
any paperwork of any kind other than a stack of applications?
    Mr. Koskinen. No. My understanding is that there were 
ultimately developed ``Be On The Lookout'' lists for 
organizations with these names in their titles, and some of 
those were progressive names but the bulk of the applications 
were conservative. And it was that list, that ``Be On The 
Lookout'' list of any organization with these names in their 
title, had nothing to do with whatever their political 
philosophies or views were. It was if their name was in the 
title they should then be selected for review.
    Mr. King. And who generated that?
    Mr. Koskinen. Pardon?
    Mr. King. Who generated that ``Be On The Lookout'' memo?
    Mr. Koskinen. It actually was--I am not an expert in what 
happened before I got there, but my understanding was it was a 
back and forth by people at Lois Lerner's office as well as the 
frontline trying to figure out how do we handle these. And that 
list was developed and there was an attempt to stop using a 
list and then the list got used again.
    Mr. King. And we know that the IG confirmed the targeting 
that had taken place as well. I would ask you, have there been 
any firings, dismissals? Have you identified anyone within the 
IRS that had violated law or policy or protocol in such a way 
that it was worthy of termination?
    Mr. Koskinen. As I noted, all of this happened well before 
I got there. That is why I am here. But as I stated, starting 
with the acting commissioner down, everyone in that chain of 
command is gone.
    Mr. King. Everybody in the chain of command is gone. Are 
there any remaining culprits within the IRS today?
    Mr. Koskinen. None that anybody has pointed out that had a 
responsibility. The leadership and the responsibility are gone.
    Mr. King. And if you identified them, that would be your 
duty going forward as well?
    Mr. Koskinen. Yes.
    Mr. King. And then I would like to take you to Martinsburg. 
I am having a little trouble understanding that. And that is, 
there were 424 tapes that were discovered at storage in 
Martinsburg in a shipping center that I view as a warehouse of 
about 1,900 square feet. I know about how big that is. And so 
that night shift, they decided they would scrub those tapes, 
422 of the 424 successfully. And can you explain to this 
Committee how long it would take to process 422 tapes?
    Mr. Koskinen. I don't know, but I assume it is a relatively 
prompt process. I would note, the tapes actually had been sent 
to Martinsburg. They originally were in New Carrollton and they 
were actually--a bulk of related tapes had been erased a couple 
years before that. These were the remaining tapes. They were in 
a closet. The IG said they were identified as junk and they 
were sent----
    Mr. King. Do they process them one tape at a time or 
multiple tapes in batches?
    Mr. Koskinen. That I don't understand--I don't know, but I 
think they are one at a time but we will--we can find out.
    Mr. King. Well, I think that is important. Because how long 
would it take you to put a tape in, scrub it, even if it is a 
couple minutes to do so and another and another, and to get 422 
of them done in an 8-hour night shift. Do you know the names of 
the individuals that processed those tapes?
    Mr. Koskinen. I do.
    Mr. King. And they are still working for the IRS?
    Mr. Koskinen. I can't talk about personnel, but the IG 
investigated them, clearly provided a report, and I can't say 
anything more about that.
    Mr. King. Yeah, but I am not asking you for their names. I 
am just saying, are they still working for the IRS?
    Mr. Koskinen. My understanding is at least one of them is. 
But the IG noted it was an honest mistake, and we turned it 
over to our people to review it and that personal review--
personnel review went on. But the IG said they had made an 
honest mistake. It was not anything intentional on their party. 
They certainly didn't mean to interfere with anything going on 
with the Congress.
    Mr. King. The IG, in their testimony before Congress, 
seemed to be a bit incredulous that this string of coincidences 
could be put together in that fashion and have the voids and 
the vacancies in information that we have.
    I just reflect on this, Commissioner, is that if I would 
take the timeline of the IRS activities throughout this thing--
and there are many of them sitting around in this Committee 
today--and I would overlay that over the timeline of the things 
that went on with Watergate, I will ask you, which one do you 
think would sound more improbable?
    Mr. Koskinen. Again, that is a judgment, I guess, people 
could make. I think when there is a 17-minute gap and no 
intervening information provided, that is more significant than 
when there are tapes erased and 24,000 emails are provided from 
that same period. If we had some information about that 
conversations on the 17-minute gap, they would be more 
comparable. But there was no information there. It was all 
lost. Here, the IG said 24,000 emails but only 10,000 of them 
were from the gap period, and in that gap period we produced 
24,000, twice as many emails from Lois Lerner.
    Mr. King. I would submit the opposite conclusion myself, 
but I thank you, Commissioner.
    And I yield back, Mr. Chairman.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Georgia, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    This hearing has been noticed as a ``Hearing on Impeachment 
Articles Referred on John Koskinen, Part III.'' There are no 
impeachment articles, and this is not an impeachment hearing. 
This hearing is therefore simply a total sham. The impeachment 
process cannot begin until the 435 Members of the House of 
Representatives adopt a resolution authorizing the House 
Judiciary Committee to conduct an independent investigation. 
Such a resolution has not been presented to or passed by the 
House, rendering today's hearing a misnamed farce.
    This Committee does a grave injustice to the Committee as a 
hollowed institution by being complicit in the perpetuation of 
this sham proceeding. There is a reason for a careful process 
when it comes to the most drastic action of impeachment; it is 
called due process. The effort to impeach IRS Commissioner John 
Koskinen is without precedent in the history of the United 
States.
    The House has impeached Executive Branch officials only 
three times, and it has never impeached a sub cabinet official. 
The so-called impeachment resolutions contain clear errors of 
fact, misleading statements, and baseless conclusions.
    The commissioner has repeatedly asked for immediate access 
to the transcripts of all interviews conduct by the House 
Oversight and Government Reform Committee during its 
investigation. They are necessary to answer basic questions 
about the scope and depth of that Committee's investigation, 
such as what witnesses were interviewed, what questions were 
asked, what leads were followed, and whether all relevant 
information was disclosed.
    But, again, I would tell you that this Committee has 
conducted no such investigation, the House Judiciary Committee. 
This is a drastic departure from our previous process, and it 
is depriving Commissioner Koskinen of his due process rights.
    You know, there are many basic reasons for there to be due 
process applicable to this particular proceeding, with the 
errors that are--and the misleading statements and baseless 
conclusions that riddle the so-called charging document.
    It is due process that requires Commissioner Koskinen to be 
allowed to make objections to any evidence, to cross-examine 
each witness that the resolution's proponents put forward, to 
call his own witnesses, to expose what he believes to be 
blatant factual errors in the resolution.
    And then after due process allowed for the submission of 
the evidence against him and his ability to confront that 
evidence, present his own evidence, have that evidence subject 
to confrontation by the accuser, it then would fall to the 
reasoned and sober intellect of this Committee to determine 
whether or not impeachment was, in fact, warranted, which is a 
very drastic action, again, only taking place three times in 
the history of this country.
    So what we are doing today, ladies and gentlemen, you know, 
I know, the American people know, it is just plain politics. We 
have got other things that we should be dealing with: The Zika 
virus, funding for it; funding for the Flint fiasco that has 
been un-remediated for the last year. So many things for this 
Congress to do: Passing a budget, keeping the government open. 
We are approaching another deadline, September 30. No 
continuing resolution, no omnibus, no appropriations bills 
passed, nothing. And here we are 3 or 4 days before we adjourn 
so that these Members, who talk so badly about the institution 
of government can go home to get reelected so they can come 
back next year and do nothing.
    With that, I will yield back the balance of my time.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, sometimes the track record of a particular 
witness to obfuscate is so strong that it vitiates the purpose 
of additional questions. And all that one can do is to state 
the facts and hope that they will be enough to serve the cause 
of justice.
    Commissioner John Koskinen took over the Internal Revenue 
Service in the wake of the IRS conservative group targeting 
scandal, ostensibly, for the precise purpose of reforming that 
agency internally. Instead, he pointedly continued his 
predecessor's legacy of deliberately stonewalling justice.
    After Lois Lerner, director of the IRS's tax-exempt 
organizations unit invoked the Fifth Amendment when she 
appeared before Congress, the Committee on Oversight and 
Government Reform issued a subpoena for IRS documents, 
including all of Lois Lerner's emails. The IRS's chief 
technology officer specifically issued a preservation order 
instructing employees not to destroy any emails, backup tapes, 
or anything relevant to the investigation.
    But, Mr. Chairman, despite a congressional subpoena and a 
do-not-destroy order, the IRS inspector general found that the 
agency erased 422 backup tapes containing as many as 24,000 
emails. And I know that has been stated here. But all the 
while, Commissioner Koskinen knowingly kept Congress in the 
dark.
    Commissioner Koskinen was clearly aware that the emails had 
been lost, but he knowingly and deliberately withheld that 
information from Congress for 4 months and stonewalled the 
entire investigation. Mr. Koskinen testified under oath four 
different times before Congress during that 4-month period 
saying he would turn over all of Lerner's emails, making no 
mention of the fact that the bulk of them had already been 
``lost.''
    Mr. Koskinen provided false testimony and swore under oath 
that the information on the bulk of the backup tapes was 
unrecoverable. The inspector general found that approximately 
700 of those emails had not, in fact, been erased and were, in 
fact, recoverable. Commissioner Koskinen then failed to protect 
citizens against the same type of future discrimination.
    A General Accounting Office report found no significant 
measures had been implemented under Mr. Koskinen's watch to 
ensure that civil servants at the IRS don't continue in the 
future to unlawfully target Americans based on their political 
or religious views. Mr. Chairman, this entire matter was 
absolutely counter to everything a republic like ours was meant 
to be. In a constitutional republic like the United States of 
America, we are fundamentally predicated on the rule of law.
    And there are very few things that more shamefully break 
faith with America and the American people or that undermine 
their trust in their government more than witnessing those 
given the sacred responsibility to enforce taxation equally and 
according to the law, using the Federal Government's power of 
taxation and its attending power to unlawfully and economically 
destroy.
    For them to then deliberately oppress American citizens 
based on their religious or political views with these powers 
is an unconscionable act. And such a tyrannical abuse of power 
and the betrayal of their sworn oath to the United States 
constitution by Mr. Koskinen and Mr. Obama will be writ large 
in their legacy because it is something that goes to the very 
heart of the rule of law in this republic and that so many 
lying out in Arlington National Cemetery died to preserve.
    Mr. Koskinen would never have allowed an American taxpayer 
to treat an IRS audit the way he and other IRS officials have 
treated this congressional investigation. The Congress owes it 
to the American people and future generations and to our sworn 
oath to the Constitution to hold the perpetrators of this 
tyrannical abuse of power accountable and to make sure it never 
happens again.
    Mr. Chairman, with that, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Florida, Mr. Deutch, for 5 
minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Commissioner Koskinen, since you are the commissioner of 
the IRS, I have some tax questions for you. Since 1976, 
Commissioner, every Democratic and Republican candidate for 
president--every one--has released his personal tax returns. 
And releasing tax returns provides voters with important 
background information of the candidate's contributions to his 
community, how he may operate his business.
    And I just would like to confirm a few things that we might 
know if we had access to the candidate's tax returns. Releasing 
a tax return can demonstrate how much a person pays in taxes. 
Is that correct?
    Mr. Koskinen. You would know anytime anybody files what 
they paid in taxes, yes.
    Mr. Deutch. And would it also tell us how much a person 
gives to charity?
    Mr. Koskinen. To the extent they took the charitable 
deduction, it would. For various reasons sometimes people 
don't.
    Mr. Deutch. Would it give us some indication into a 
person's assets or investments?
    Mr. Koskinen. All you report is income and expenses, so it 
would not necessarily tell you a lot about assets other than 
that they produced a lot of income.
    Mr. Deutch. If they produced a lot of income, we could draw 
some conclusions about the amount of the assets?
    Mr. Koskinen. Right. But there would be no way to actually 
know what the assets were.
    Mr. Deutch. Yeah. And would it confirm how the person has 
chosen to try to reduce his tax liability?
    Mr. Koskinen. Yeah. You would be able to see in any 
taxpayer's return what the deductions were, what benefits they 
took advantage of.
    Mr. Deutch. Right. If we had the tax return, would it 
provide information on how a person receives his income? Right?
    Mr. Koskinen. You would see the source of income, yes.
    Mr. Deutch. Right. And we may, if we had the access to the 
tax returns, have some indication how the person finances his 
real estate transactions?
    Mr. Koskinen. You would have some. You wouldn't have a full 
picture, again, because you wouldn't have a picture of all the 
assets.
    Mr. Deutch. We would have some. Right, we would have some, 
as opposed to none.
    And is it correct that a lot of this information we would 
be able to glean right from the first couple of pages a 
person's 1040 and schedule A?
    Mr. Koskinen. You would have some, but it would be a very 
high level of abstraction because there would not be any of the 
exhibits.
    Mr. Deutch. Right. But if--well, let me just--let me go on. 
As you are aware, the current Republican nominee for President, 
Donald Trump, has repeatedly said that he is unable to release 
his tax returns because he is under audit by the IRS. He said, 
``When the audit is complete, I will release my returns. I 
don't have a problem with it. It doesn't matter.''
    So I just have a few questions about that. Under current 
law, the IRS is prohibited from disclosing a person's tax 
returns, right?
    Mr. Koskinen. Correct.
    Mr. Deutch. But current law doesn't prevent a person from 
releasing his own tax returns?
    Mr. Koskinen. That's correct.
    Mr. Deutch. And how long can an audit go on?
    Mr. Koskinen. Audits can go on, depending on the 
complexity, for years.
    Mr. Deutch. And a person's not prohibited from releasing 
their tax returns while they are under audit, are they?
    Mr. Koskinen. No. They may be advised not to, but they are 
not prohibited.
    Mr. Deutch. Advised by the IRS not to?
    Mr. Koskinen. No. They may be advised by their advisors, 
but not by the IRS.
    Mr. Deutch. Okay. And, in fact, Richard Nixon released his 
tax returns while he was being audited by the IRS. Is there 
anything in the law that prohibits a person from releasing his 
tax returns during an audit?
    Mr. Koskinen. No.
    Mr. Deutch. Does the IRS--well, let me ask another 
question. Would releasing the person's tax return during the 
audit in any way impact that pending audit of the return?
    Mr. Koskinen. The release itself wouldn't. The concern 
sometimes by taxpayers is that when the information is public, 
there may be more information that will be discovered or 
provided.
    Mr. Deutch. Yes.
    Mr. Koskinen. But to release itself does not----
    Mr. Deutch. I understand. Right. That is the concern. I 
understand. We understand that that is the concern.
    Does the IRS send a letter to a person informing him that 
he is being audited by the IRS?
    Mr. Koskinen. Yes. In other words--in fact, as I tell 
people with the phone scams, if you are surprised to be hearing 
from us, you are not hearing from us. We send you a letter if 
we are going to start an audit.
    Mr. Deutch. Commissioner Koskinen, is there any law or 
regulation that prevents a person from publicly disclosing the 
letter from the IRS that tells them that they are being 
audited?
    Mr. Koskinen. There is no restriction by the IRS.
    Mr. Deutch. Releasing tax returns, as we have just been 
discussing, provides transparency. It is being reported also on 
the front page of today's Washington Post that the Trump 
Foundation spent more than a quarter of a million dollars to 
settle lawsuits that were filed against his business. Just a 
few remaining questions there.
    Is it illegal for the head of a nonprofit to use money from 
the charity to benefit himself or his business?
    Mr. Koskinen. As a general matter, nonprofits are not 
allowed to--it is called inurement--use benefits of the tax-
exempt organization for their own purposes.
    Mr. Deutch. Okay. Is it also illegal for a nonprofit group 
to make political gifts such as the Trump Foundation's $25,000 
contribution to the Florida attorney general's reelection 
campaign?
    Mr. Koskinen. I can't talk about any individual taxpayer's 
activities. The law is clear: 501(c)(3) organizations cannot be 
involved in politics.
    Mr. Deutch. Right.
    Mr. Koskinen. But I, again, would stress, we never talk 
about any individual's tax returns or their policies.
    Mr. Deutch. Right. Commissioner Koskinen, we shouldn't have 
to ask you to talk about Donald Trump's tax returns. We should 
be free to talk about those tax returns, because as you have 
told us, there is simply no reason that he has not shared them 
with us; he has not been prohibited from sharing them with us; 
and, in fact, there is no rule that says that he can't at least 
provide the audit notice so that we can have some small piece 
of information that might help us.
    You are right. We can't learn everything there is to learn 
about his finances from his tax return, but it sure would be an 
important start for the American people. And I appreciate your 
being here to help clear some of that up.
    And I yield back the balance of my time.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Koskinen, is the IRS still targeting conservative 
groups?
    Mr. Koskinen. Absolutely not.
    Mr. Jordan. Mr. Koskinen, that is not what the United 
States Court of Appeals for the District of Columbia said. They 
just issued a decision on August 5, 2016, last month. And I 
just want to read from that decision. They said, ``Cessation 
has never occurred. The IRS has admitted to the inspector 
general, to the district court, and to this court that 
applications for exemption by some plaintiffs have never to 
this day been processed.''
    That sounds like it is still going on to me, Mr. Koskinen.
    Mr. Koskinen. I----
    Mr. Jordan. I mean, let's read further.
    Mr. Koskinen. Okay.
    Mr. Jordan. They say, It is absurd to suggest that the 
effect of the IRS's unlawful conduct, which delayed the 
processing of plaintiffs' applications, has been eradicated 
when two of the plaintiffs' applications remain pending. Sounds 
like targeting still going on to me.
    Let me just paraphrase that. It is absurd to say targeting 
has stopped when the unlawful conduct continues. Again, this is 
not Jim Jordan saying this. This is not Donald Trump saying 
this. This is not the Freedom Caucus saying this. This is the 
United States Court of Appeals for the District of Columbia 
decided just 6 weeks ago.
    So you guys are still up to it, aren't you?
    Mr. Koskinen. No. As I wrote in a letter to all of the 
oversight Committees, including yours, there are three cases 
out of the 145 that have not been processed because they are in 
litigation. And our policy for years has been if you are in a 
process and then you sue us, we stop the process.
    Mr. Jordan. You know----
    Mr. Koskinen. But those are three from 4 or 5 years ago. 
They are not new cases. There is no new case in the last 3 
years.
    Mr. Jordan. Yeah. These guys have been waiting 4 or 5, some 
cases 6 years. And, you know, I figured you would say that, and 
so it doesn't carry much weight with me and it frankly didn't 
carry any weight with the court. Because here is what the court 
said to that very argument. They said, The IRS is telling 
applicants in these cases, ``We have been violating your rights 
and not properly processing your applications. You are entitled 
to have your applications processed. But if you are ask for 
that processing by way of a lawsuit, then you can't have it.''
    So the court wasn't buying your argument. They don't care 
what your internal policy is. They are more concerned about 
people's fundamental liberties and you guys continue to violate 
them.
    They go on to say this: ``We would advise the IRS if you 
haven't ceased to violate the rights of the taxpayers, then 
there is no cessation.'' So if you are still doing it, if you 
haven't stopped doing it, then you are still doing it is what 
the court said. You can't sit there and say you are not still 
targeting. So here is what we have got to keep in mind.
    Mr. Koskinen. Targeting is a present-tense verb. Those 
organizations were improperly selected 4 years ago.
    Mr. Jordan. These organizations still don't have their tax-
exempt status.
    Mr. Koskinen. And as I noted, once the court made that 
issue, while we for 50 years have stopped processing, we are 
processing those applications.
    Mr. Jordan. Remember, Mr. Koskinen, this is not me making 
the argument. This is not just all these--we have heard from 
the other side, these conservatives who want to impeach the IRS 
commissioner. This is the court saying you guys are still doing 
it. Never forget the underlying offense.
    The IRS targeted people for exercising their most 
fundamental liberty, their right to speak against the policies 
of their government, and they got harassed for doing that. We 
have heard a lot about due process from the other side. I think 
you should get every bit of due process you are entitled to.
    But how about the due process that all these people who got 
harassed for years and three groups are still getting harassed 
today? Here is what happened. The IRS targeted folks. They got 
caught. Ms. Lerner, at first, she lies about it. She says, oh, 
it wasn't us. It was those folks in Cincinnati. Then she takes 
the Fifth. That sort of puts a premium on all the documents and 
communications, making sure we get those. That is why we had 
two subpoenas and three preservation orders for that 
information.
    You come in to clean up the mess, and under your watch, 
documents are destroyed, false statements are made, 422 backup 
tapes are erased. And now the clincher. Now the clincher: It is 
still going on. And so the other side can say that we shouldn't 
be here today. You shouldn't have to sit through this. I am 
saying, why didn't we do this a long time ago?
    You should've been gone a long time ago, when this is the 
record: Losing emails, backup tapes destroyed, targeting still 
continues to this day, not Jim Jordan's words, not Freedom 
Caucus words, words from the Court of Appeals. For goodness 
sake, that is why this hearing is important, and that is why we 
should move forward with the articles that Mr. Chaffetz 
submitted 15 months ago and make sure that you no longer hold 
office.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognizes the gentlewoman from California, Ms. Chu, for 5 
minutes.
    Ms. Chu. Thank you, Mr. Speaker, Mr. Chair.
    Commissioner Koskinen, today, how many investigations have 
you been involved with regarding the events referenced in this 
impeachment resolution? Could you explain your personal 
involvement in each of these investigations?
    Mr. Koskinen. Again, all of this happened before me. When I 
started, there were six investigations ongoing: The House 
Oversight Committee, the Ways and Means Committee, the Senate 
Finance Committee, the Senate Permanent Subcommittee on 
Investigations, the Department of Justice, and the Inspector 
General all had investigations going on.
    Ms. Chu. What were the results of these investigations?
    Mr. Koskinen. The IG noted in its investigation that no one 
had done anything purposely to impede the congressional 
investigations. Nobody had instructed anybody to do that. The 
Justice Department said, while there--and I would totally 
agree--mistakes made--it was not a perfect process by any 
means--no one had done anything that, in fact, raised to a 
level of any activity subject to, you know--they basically said 
nobody did anything that impeded the investigation.
    The bipartisan report from the Senate Finance Committee, 
again, had all the information they needed, disagreed. There 
was a majority report and a minority report about whether it 
was political motivation or whether it, in fact, was just bad 
management and a poor management judgment. The bipartisan 
report had a series of recommendations. We accepted all of 
those recommendations. We actually accepted all the 
recommendations of the majority report and the minority report.
    The Permanent Subcommittee on Investigations closed its 
report. It was the first one. And it basically maintained that 
there was nothing done that was intentional in terms of any 
material presentation. Everybody has agreed that it was a 
management mistake, a terrible mistake. It shouldn't happen 
again. No one should be selected for any adverse activities, 
either denial of an application or wait for time, simply 
because of the name of the organization.
    This was not political philosophy. This was, in fact, 
selecting people only by the name of the organization. And 
everybody has agreed--and I totally agreed when I started--in 
fact, I apologize to anyone who was stuck in the process for 
more than a year waiting for an answer.
    The Ways and Means Committee has not issued a report.
    The House Oversight Committee did not issue a Committee 
report. There was a staff report issued at the end of 2014.
    Ms. Chu. In fact, let's talk about the Treasury Inspector 
General. Could you describe what the working relationship is 
like between the staff at the IRS and the Treasury Inspector 
General. Are the results of the investigation by them generally 
considered nonbiased and reliable?
    Mr. Koskinen. Yes. For 3 years, when I was in OMB, I 
chaired the Intergovernmental Organization of Inspectors 
General. I have always been a supporter of the IGs. In the 
private sector, I was a supporter of internal auditors. I meet 
with the senior staff of the IG every month.
    As I tell our employees, the IGs and GAO don't create 
problems; they raise issues before that we might not otherwise 
know, and it is important to respond positively. And we have 
responded to the IG's recommendation. The IG reviewed it and 
said, we had actually basically implemented all of their 
recommendations. They had some additional recommendations. We 
have implemented those as well.
    But, I think the IG has done a good job. I knew him when he 
worked on the Hill for the Republicans, but I don't think he 
has been political. I think he has done a straightforward job, 
and we have a good relationship.
    Ms. Chu. Uh-huh.
    One major problem here stems from the decision of two IRS 
employees in a West Virginia facility to erase the backup tapes 
that contained some of the Lois Lerner emails. The inspector 
general found in its June 2015 report that no evidence was 
uncovered that any IRS employees had been directed to destroy 
or hide information from Congress, the DOJ, or the Treasury 
Inspector General.
    Let me ask this: Did you make an affirmative order that 
those tapes be preserved? And did you ever make efforts to keep 
this information from Congress?
    Mr. Koskinen. I know I never kept any information from the 
Congress. My counsel, in February 2014, within a few weeks of 
my arrival sent a reminder to the IT department making sure 
that they understood that all of the media should be preserved.
    And again, as I said, when I discovered in 2015 from the IG 
that those tapes had been erased, I said that was a mistake. It 
shouldn't have happened. And as has been noted, I run the 
organization, and if an honest mistake is made on my watch, it 
is my mistake. I tell employees that.
    Ms. Chu. So you made several statements saying that those 
tapes should be preserved then, your office did?
    Mr. Koskinen. I did not make several. It had gone through 
the system. There was a standing order in 2013. There was a 
reminder that went out from my counsel to the IT department to 
preserve those reports. We were making a massive effort of 
production, so you would have thought everybody would have 
known that we are producing documents as fast as we could, and 
therefore, we should protect them.
    Ms. Chu. Thank you. I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman.
    Recognizes the gentleman from Georgia, Mr. Collins, for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Koskinen, thanks for being here. I think it is 
interesting that we have the commissioner of the IRS here to 
give tax advice. I am glad that you have worked with my office 
to actually help my constituents actually be able to get tax 
advice, where we had one person with 700-plus thousand people 
having to take golden tickets at a front door at 3:30 in the 
morning.
    I know we have added another one. I would like to see 
another added there. And we still have some ongoing 
correspondence that I would like some break down on the letters 
that I have shared with you.
    Mr. Koskinen. And I am delighted to do that.
    Mr. Collins. And we will continue.
    However, let me go back to just a couple questions, because 
you and I have had several conversations. This thing has round 
over several years, and we have had conversations when I was a 
Member of the Oversight Committee.
    And do you believe that a subpoena is a valid form of 
getting information from someone who is being asked for, like 
if the Committee actually subpoenas the Treasury or the IRS to 
produce documents, that is as a valid form of getting 
documents?
    Mr. Koskinen. It certainly is.
    Mr. Collins. And it should be followed. Correct?
    Mr. Koskinen. Yes.
    Mr. Collins. Okay. In September 2014, I asked you, this 
does not require a transcript. I am going to give you your 
answer back. I asked if the IRS had produced all the emails 
from Holly Paz as required by subpoena; this subpoena currently 
right here at the Oversight Committee. I had asked you the same 
question 56 days earlier, and the answer then was no. And then 
when I asked you the question September of 2014, the answer 
again was no.
    My question to you today, have those documents been 
produced to the Oversight Committee?
    Mr. Koskinen. I don't know. We have been working from the 
start with the Committee staff to prioritize. We had a long 
hearing, as you will recall, in March of 2014, about the order 
in which we would reply to the subpoena. I made it clear we 
were prepared to respond to the entire subpoena. That is how we 
ended up with the Committee saying their first priority would 
be all of the remaining Lois Lerner emails, and I said we would 
provide those.
    Since then we have been working with the Committee and 
working our way through the subpoena in terms of whatever 
information they would want.
    Mr. Collins. Okay. Well, in number two on this subpoena, 
just as a schedule--which was supposed to have been produced on 
August 16, 2013, a nice day. That was my birthday. It didn't 
get the gift of being produced. But on Holly Paz was number two 
on the list. And on the actual request.
    My question is this: Holly Paz is not in a crash situation. 
Her hard drive was never in doubt. Why the delay here? Are you 
blaming the Committee?
    Mr. Koskinen. No, no, no. The Committee has a vast subpoena 
they are asking for, some information from 90,000 IRS 
employees. And at that hearing in March of 2014, we agreed that 
we would get Lois Lerner emails and then we would respond to 
the Committee staff as we went forward.
    Mr. Collins. But if----
    Mr. Koskinen. And we have provided Holly Paz emails. I just 
can't tell you whether all of the ones from Holly Paz that have 
anything to do with this issue have been provided. The question 
is, have we provided other emails that she may have sent, and I 
don't know the answer to that.
    Mr. Collins. Well, in just your opinion as commissioner, do 
you think that you are in compliance with this subpoena?
    Mr. Koskinen. I think we are in compliance with that 
subpoena in terms of our discussions with the staff. We have 
not completed--as I say, one of those questions is emails from 
90,000 employees outside, and I have explained in 2014 that 
that would take a long time, and in our discussions with the 
Committee staff we are not pursuing that.
    Mr. Collins. And we have understood that, but some of these 
were specifically named. The four people specifically named 
were not these vast amounts out here.
    Mr. Koskinen. Right.
    Mr. Collins. Holly Paz has no constructive problem with a 
computer. It was a hard drive.
    Mr. Koskinen. Exactly.
    Mr. Collins. You could get it off of it. I know--and it 
sounds very upfront frankly, and I know this. You are a very 
good witness in that you parse your words very well. That is a 
compliment, but it's also the very frustrating part of this 
whole thing. It sounds very much like you are blaming Committee 
staff on their priorities here.
    Mr. Koskinen. I----
    Mr. Collins. I think at this point this is the frustration 
that we all have with this.
    Mr. Koskinen. I don't mean to do that, and I apologize if 
there is any indication that I am trying to blame the staff. 
All I am saying is we have been working with the staff in terms 
of response to the subpoena. We provided all of the Holly Paz 
and all of everybody's emails regarding the determination. That 
is how the 2,300,000 pages came out. I have forgotten how many 
hundreds, thousands of emails there are.
    To the extent that the Committee at any time feels that 
there is additional information that we haven't provided, we 
have been providing information we completed. We sent a note to 
everybody saying we are done with document production in 
January of 2015. If we haven't provided all of the Holly Paz 
other emails that have nothing to do really with this and the 
Committee staff would like those, we will do that.
    Mr. Collins. As I said before then, I say again now, this 
is why the American people just do not understand the selective 
ability to, you know, work with a subpoena or not.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from Illinois, Mr. Gutierrez, for 5 
minutes.
    Mr. Gutierrez. Thank you, Commissioner. I am sorry, I am 
going to finish up this Skittle. I really love Skittles, 
because, as you see, they come orange and yellow, red and 
purple, all the different colors. And they come all together in 
a bag together, right, all the different colors and kind of 
like a rainbow. A lot of people on this side of the aisle, we 
like that.
    And every now and then--sorry--I will get a bad Skittle. 
But I don't ban them all because I get one. Because most of the 
Skittles are pretty delicious. I like them. They might not be 
nutritious, but they are delicious. Just like we shouldn't ban 
all the little girls fleeing murder and rape and human bondage 
and torture. We shouldn't ban them all. Just like we wouldn't 
ban all the Skittles because there might be one bad Skittle. 
This is a Nation of freedom of religion, and yes, even freedom 
to pay your taxes to the United States.
    Commissioner, I have a few extra bags of Skittles, and I am 
going to share them with you and your staff so that after this 
reckless and bitter hearing, you can get a small amount of 
sweet candy to improve the rest of your day.
    Now, I have a question. Is it fair to say that you are an 
expert on tax law at this point?
    Mr. Koskinen. I know I have never claimed I was an expert 
on tax law.
    Mr. Gutierrez. Okay. I know you can't answer questions 
about specific tax returns--you have made that abundantly clear 
to my friend Mr. Deutch and others as we had the hearings. Even 
if those tax returns everybody in America would love to see 
them, you can't share them so we can't do a poll and send it to 
you commissioner and you can abide by the poll. There are laws. 
Or to answer specific questions about any individual's tax 
activity.
    So I want to offer a hypothetical and see if we can't get 
your reaction. Let's say someone set up a charitable 
foundation. Let's say someone solicits millions of dollars for 
that foundation, and let's say that that individual who set up 
the foundation used the money from that foundation, which is 
tax exempt by you at the IRS. This is a tax-exempt tax 
foundation.
    And he uses it to pay off debts incurred by his for-profit 
company. Tax-exempt charitable, use that money to pay off debts 
incurred. In fact, not only does he do that, he used it to pay 
off legal judgment against his for-profit company. That is the 
company I am making money from, and I am hopefully paying you 
taxes. And I am using the other money that I don't pay you 
taxes because it is tax exempt.
    So let's say for the sake of argument the individual says 
he would pay someone $1 million if they hit a hole-in-one 
during a tournament at his golf course, and after someone hit 
the hole-in-one the individual refused to pay. Then after a 
court rules that he has to pay--$100,000 would be paid, 
mutually agreed by a charity, a part of that settlement, the 
individual takes the $100,000 of other people's money--not his 
money--the court said you have to pay the money, individual, 
but he uses it from the foundation to pay that debt.
    My question to you is, given that scenario, is that 
strictly speaking--what is the term--legal to do something like 
that? I just want to know, would that be legal for an 
individual to use money from a tax-exempt account, foundation, 
a charitable account, of other people's money to pay off legal 
obligations incurred by his for-profit enterprises?
    And before you answer, let me just follow up, again, 
strictly hypothetical: Let's say there were a $10,000 portrait 
of the individual and he used the foundation's money to buy it, 
put it in one of his for-profit businesses, writing a check out 
of the charity auction drawn and the charity using other 
people's charitable tax-free donation but using the portrait in 
his for-profit business.
    So I get a bunch of money, I put it in my foundation, we 
don't pay taxes on it. I go and bid on a portrait of me and 
then I put it in my business. Would that, in your opinion, be 
legal within the law and consistent with someone who declares 
themself a law-and-order individual?
    Mr. Koskinen. Congressman, I said at the start I came here 
to answer questions truthfully and straightforward. But I 
can't--we don't talk about individual cases, and if 
hypotheticals begin to look like individual cases, I am not at 
liberty to give opinion or judgments about them.
    Mr. Gutierrez. But, Commissioner, Commissioner, you do know 
whether something is legal or not. I mean, here is the 
question: Can someone take money from a not-for-profit 
foundation and pay off a legal settlement, court settlement to 
pay that debt off?
    Mr. Koskinen. What I can say is----
    Mr. Gutierrez. Is it--can you use tax-exempt money to pay 
for business purposes?
    Mr. Koskinen. As I have said before, the law is clear: Any 
tax-exempt organization cannot use its money to benefit anyone 
as closely associated with that organization. But I can't give 
you--every case is different. Every case has background and 
information surrounding it and----
    Mr. Gutierrez. Commissioner, you know who I am talking 
about. Everybody in this room knows who I am talking about, 
right. So all we want is a straight answer.
    Mr. Koskinen. But I----
    Mr. Gutierrez. Right? I mean, I know--can he get a haircut?
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Gutierrez. Can he buy a new car? Can he buy new suits? 
What can he use with that tax-exempt charitable money?
    Mr. Goodlatte. The time of the gentleman has expired. The 
commissioner will be allowed to answer the question if he 
chooses.
    Mr. Koskinen. As I would stress, and I think it is 
important for all the taxpayers to understand, if you deal with 
us, your information we go at great lengths to protect. Our 
employees understand every taxpayer's information is 
sacrosanct. We do not reveal it to anybody.
    And it is important for them to understand that we do not 
discuss anything about their tax situation with the public. And 
so while I understand the interest in this issue, even in the 
hypothetical sense, it would be inappropriate for the 
commissioner or anybody else at the IRS to respond other than 
to say the law is clear as to what 501(c)(3)s can do and cannot 
do.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
South Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Commissioner, I want you and I to do something that those 
of us who serve in government probably ought to do with a 
little more regularity, which is put ourselves in the shoes of 
the people that we purport to work for. I want you to imagine 
waking up and you learn that agents of an agency that you 
already fear, one of the most feared agencies in all of 
government, with a lot of control and power, either real or 
perceived, over your life, some agents of that agency are 
targeting people based on their political ideology. And those 
are folks in positions of leadership.
    I don't know if you have read Lois Lerner's emails or not, 
but there is a palpable animus, a hostility toward 
conservatives that comes through in her work emails. These are 
work emails. This is not her musing about an op-ed in the 
Washington Post. These are work emails demonstrating a 
tremendous enmity toward conservatives. And some of those 
groups wanted to do nothing more than just educate their fellow 
citizens about the Constitution.
    And so I am sure you can appreciate the irony of Lois 
Lerner punishing people who want to educate their fellow 
citizens about the Constitution and then she comes and hides 
behind it to avoid answering questions about her conduct. That 
is why people are upset.
    And then you add to that the President of the United 
States, the person who campaigned as the great uniter, that the 
same rules should apply to everyone, really didn't mean it 
after all. And he prejudges an investigation while the 
investigation is pending. So against this backdrop, Congress--I 
am sure you will agree--has not only the right but, frankly, an 
obligation to provide oversight over an agency where that is 
the prima facie evidence at bar.
    We have an obligation to do it. But the efficacy of our 
investigations depends upon the fullness of the information we 
are provided and the honesty of the witnesses that come before 
us. We are of no use if we have incomplete information or those 
that we seek information from are not truthful.
    So there is a piece of your testimony that has troubled me, 
and I want us to go through it. And this is what you said: 
``Since the start of this investigation, every email has been 
preserved. Nothing has been lost. Nothing has been destroyed.'' 
So I want us to go through it. What did you mean by since the 
start of this investigation?
    Mr. Koskinen. I meant since the response, as you note, the 
appropriate congressional response to the IG report in May of 
2013 when the six investigations started. The investigations 
there, as I said, were four congressional, the IG and DOJ.
    Mr. Gowdy. All right. So you and I are in agreement. You 
meant from the very inception of the investigation?
    Mr. Koskinen. Correct.
    Mr. Gowdy. And then your next--this is under oath--I think 
you will agree it is material. It is important. We are not 
asking you about something unrelated to the investigation. It 
is under oath. The next thing you say is, ``Every email has 
been preserved.'' What did you mean by every email?
    Mr. Koskinen. I meant by every email that the IRS had that 
I knew of had been preserved. That is what I thought. That was 
my honest belief.
    Mr. Gowdy. Well, then why didn't you say that?
    Mr. Koskinen. Pardon?
    Mr. Gowdy. Why didn't you say that?
    Mr. Koskinen. Well, if I knew then what I know now, I would 
have testified differently. But at the time I testified 
honestly on what I knew and what I had been told.
    Mr. Gowdy. Well, then that gets us----
    Mr. Koskinen. And nobody regrets more than I do that in 
some ways this case has been the case that keeps on giving with 
new information coming out. I wish the information had all been 
out to begin with.
    Mr. Gowdy. Well, Commissioner, it is always an option to 
say, ``I don't know.'' Loretta Lynch has made a living 
answering questions with, ``I don't know.'' It is always an 
option to say, ``Based on what I was told.'' But you were 
incredibly definitive. You said every email has been preserved. 
And then for those of us who may not have been paying 
attention, you said, nothing has been lost. What did you mean 
by ``nothing''?
    Mr. Koskinen. What I meant at that time was I had been 
advised nothing. But you are exactly right, in retrospect I 
would have been better advised to say, ``to the best of my 
knowledge,'' or, ``on the basis of what I have been told,'' 
which was, in fact, the basis of my testimony.
    Mr. Gowdy. Well, I am out of time, but this is what I would 
like you to do, because this is an important matter. I was one 
of the folks who wanted this hearing. I think this is really 
important. And you should be able to provide us information, 
but Congress should have all of that information.
    Mr. Koskinen. Exactly.
    Mr. Gowdy. So what I would like for you to do for me, is 
you used the word ``mistake.'' That is the lowest level of 
scienter. There is mistake, there is reckless disregard for the 
truth, there is deliberate indifference, and then there is 
intent. I would be curious what you think the proper punishment 
is for each level of that scienter.
    And the other thing I need you to do is, to the extent you 
relied upon other people's counsel or what they told you, I 
need to know who they were. I think you would want us to 
interview every single witness that has access to information 
that would be relevant.
    Mr. Koskinen. I think you have interviewed all of them 
already.
    Mr. Gowdy. So you cannot think of a single person that this 
Committee should interview that we have not already 
interviewed?
    Mr. Koskinen. To the best of my knowledge at this time, you 
have interviewed the--I don't know the names of all the 50, but 
the people who advised me throughout this case, you have 
interviewed.
    Mr. Gowdy. Would you do me the courtesy of making sure with 
your lawyer that the record is complete, because whenever the 
record is complete, that is when we have to make the decision. 
And I am giving you the opportunity under the heading of due 
process to make sure that every bit of information you think 
should be considered is, in fact, in the hands of this 
Committee.
    Mr. Koskinen. Well, I would just note, and without going 
into detail about it, there is a lot of information and 
misinformation and misinterpretation of it that is in the hands 
of the Committee, and if there were going to be a full hearing, 
I would have the opportunity to explore that, we would be able 
to cross-examine witnesses, we would be able to actually 
provide you not just the allegations being made, but the facts 
on both sides. Each side would have the opportunity.
    But the impact of the facts. You should hear from the 
inspector general directly, who did he talk to, is he still, as 
he said in his letter, confident that it was an honest mistake 
by two employees, it was not purposeful.
    You should hear----
    Mr. Gowdy. That is what I am asking.
    Mr. Koskinen. Yeah.
    Mr. Gowdy. Give me a witness list. Because you can't cross-
examine them until we have examined them.
    Mr. Koskinen. That is correct. I would be happy to provide 
you the witnesses and the information that this Committee would 
need to be able to actually proceed accordingly. But, as noted, 
that would be if the Committee decided it wanted to go to a 
full-scale impeachment process, which I understand this is not.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Goodlatte. The time of the gentleman has expired. I 
allowed additional time because that is a good exchange of what 
needs to happen.
    The Chair recognizes the gentlewoman from California, Ms. 
Bass, for 5 minutes.
    Ms. Bass. Thank you, Mr. Chair.
    Mr. Commissioner, let me begin by joining in with my 
colleague on the other side of the aisle in thanking you and 
your staff for being of great assistance to my constituents in 
Los Angeles. I have had several members of the community that 
have had some difficult situations, and your staff has been 
very responsive.
    Mr. Koskinen. Thank you.
    Ms. Bass. I know when you took over the IRS, one of the 
reasons why you were asked to fulfill this assignment is 
because of your history of addressing organizations that were 
having big challenges. And I wanted to know if you could 
describe what specific challenges the IRS faced at the time you 
took over the organization.
    Mr. Koskinen. When I took over the organization, first, we 
needed to make sure that the situation that led to the improper 
selection of people just by their names never happened again. 
And so we pursued, and as people have made recommendations over 
which we have control, we have adopted those.
    We had a substantial challenge when I started with the 
underfunding of the agency, which still continues, in terms of 
implementing not only the normal tax seasons, but we had the 
Foreign Account Tax Compliance Act, we had the Affordable Care 
Act. Since then, we have had the ABLE Act, we have had the 
Health Coverage Tax Credit Act, we have had private debt 
collection requirements, all of which have been basically 
unfunded mandates that the IRS has had.
    We are under constant attack by organized criminals around 
the world trying to get access to our information, so our 
cybersecurity issues and our antiquated IT systems are a major 
concern and a major attack for us.
    Ms. Bass. So----
    Mr. Koskinen. They are all----
    Ms. Bass. Go ahead.
    Mr. Koskinen. And the last thing is, we provide tax credits 
pursuant to statute, particularly with the earned income tax 
credit. And I have been concerned from the start that we need 
to do everything we can to get the level of improper payments 
down, make sure everybody eligible participates, but make sure 
that the right amounts go out, and it has been a very 
complicated challenge.
    Ms. Bass. So with all of those challenges, it is my 
understanding that the IRS has spent about $20 million and 
devoted over 160 hours--160,000 hours--to collect, review, and 
produce over 1.3 million pages of documents to Congress. With 
all of that effort, all of that time, and all of those pages, 
were these primarily related to the 501(c)(3), (4) issue?
    Mr. Koskinen. These were all related to the six 
investigations.
    Ms. Bass. And are those numbers accurate?
    Mr. Koskinen. Pardon?
    Ms. Bass. Are those numbers accurate in terms of the amount 
of money, time, and pages?
    Mr. Koskinen. Yes, those are the numbers. Basically it is 
$20 million, we have had 250 people at various times working 
either full-time or part-time, doing our best to respond as 
quickly as we could to congressional requests.
    Ms. Bass. So how did all of that time and money assist the 
IRS in addressing the number of challenges that you laid out?
    Mr. Koskinen. The best it was going to do, and I hoped it 
would do in some ways better than it has, would be to try to 
assure people that we understood the nature of the problem, 
which the IG had reported on 6 months before I started, and 
then we would have a basis for trying to solve that problem. 
And I think we have done--taken all the recommendations anybody 
has had, because I think it is critical, going back to the 
issue about confidence in the IRS and in the government, for 
people, as I said, to believe that they are going to get 
treated fairly.
    We don't care whether they belong to one party or another, 
whether they go to church, they don't go to church, who they 
voted for, what their political beliefs are, they should be 
treated the same way as anyone else, and all of that background 
is not relevant to us at all.
    Ms. Bass. You know, when the whole controversy was taking 
place, I found it interesting, the concern over conservative 
organizations, because I am very familiar with a number of 
liberal organizations that felt they received extra scrutiny 
beyond what was appropriate by the IRS.
    One of the root problems here in general is the time it 
takes for the agency to process applications for tax-exempt 
status. And I know in recent years, especially after Citizens 
United, the agency was overwhelmed by applications for (c)(3) 
and (c)(4) status.
    I wanted to know how you have addressed this problem and is 
there currently a backlog?
    Mr. Koskinen. Presently, there is no backlog. For a (c)(4) 
application, it now takes an average of 83 days to go through. 
For (c)(3)s, where we had a backlog of 65,000 applications when 
I started, we have streamlined the process for small charity 
applications and allowed them to get through in a matter of 
weeks rather than 9 to 12 months, and there is no backlog.
    Our goal is for the complicated (c)(3)s, to get them out 
within 270 days, and we meet that. For (c)(4)s, most of them 
get handled very quickly under expedited processing, so there 
are no backlogs.
    Ms. Bass. And are you still getting a flood of 
applications, and can you give an example of how things were 
streamlined?
    Mr. Koskinen. At this point, you know, we get--we have 
about a million and a half Subchapter S--sorry, (c)
    organizations, tax-exempt organizations. Seventy-five 
percent of them are (c)(3), only about 5 percent are (c)(4)s, 
and the majority of the (c)(4)s are garden clubs, Kiwanis 
clubs, local groups. But every year we get a couple thousand 
(c)(4) applications, and as I say, the average time for 
processing now is 83 days.
    Ms. Bass. Thank you. My time is up.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Koskinen, in your opening statement you said that you 
had instructed people in writing to preserve their records. 
Could you please provide this Committee and the Oversight and 
Government Reform Committee a copy of those emails?
    Mr. Koskinen. A copy of the emails? Sure. We would be 
delighted. I think my statement said that we instructed those. 
I did not personally send an email.
    Mr. Chaffetz. You didn't. Okay. We will go back and look at 
the record. If there are any emails asking people to preserve 
those documents, we would like see those, because we don't 
think we have them.
    Mr. Koskinen. We would be happy to provide those.
    Mr. Chaffetz. Do you stand by all of your previous 
congressional testimony?
    Mr. Koskinen. Well, I have noted that if I knew then what I 
know now, I would have testified in a different way.
    Mr. Chaffetz. What in your previous congressional testimony 
needs to be clarified or altered or updated?
    Mr. Koskinen. Well, I tried to make that clear. Clearly, at 
the time I testified, I was advised that, in fact, all the 
evidence was being preserved pursuant to the orders that went 
out. Since then, it is been clear that obviously some tapes 
were erased, which was a mistake. I said that at the time. If I 
were testifying again, I would say----
    Mr. Chaffetz. Part of the problem that we have is that you 
have never clarified your testimony. This is the first time we 
have ever heard you say ``mistake.'' This is the first time 
that you said that you provided essentially false testimony. 
That is the way I read it.
    When you said on June 20, 2014, ``Since the start of this 
investigation, every email has been preserved, nothing has been 
lost, nothing has been destroyed.'' Was that a mistake or was 
it false?
    Mr. Koskinen. That was an honest statement on the basis of 
what I knew. As Congressman Gowdy said, I would have been 
better advised if I had said, ``on the basis of what I have 
been told and I understand.''
    Mr. Chaffetz. But you told us in a hearing on July 23, you 
told Mr. Jordan that you learned in April that these emails 
were missing.
    Mr. Koskinen. You have to understand there are two sets of 
emails. The emails that I knew were missing in April of 2014 
were from the Lois Lerner hard drive crash. No one knew until 
2015 about the erasure of the tapes in Martinsburg. When I 
testified in June, our whole focus, because none of us, the 
Committee nor I, knew about the erasure----
    Mr. Chaffetz. Why are you testifying that since the start 
of the investigation, nothing has been lost, nothing has been 
destroyed?
    Mr. Koskinen. At the time I testified, that hearing was 
about the Lois Lerner hard drive crash, so it was clear Lois 
Lerner's hard drive had crashed.
    Mr. Chaffetz. But you also testified a couple weeks later 
that you knew in April there was a problem. In fact, Kate 
Duvall, your senior person, knew in February. But you said you 
personally knew in April, and yet you came before Congress and 
you gave these definitive statements.
    Mr. Koskinen. Well, if you look at the timing of it, you 
had the report from us on the entire production system and the 
Lois Lerner hard drive crash before I testified.
    Mr. Chaffetz. But what you said was false. Was it true or 
false, what you said?
    Mr. Koskinen. It was true as far as I knew. And when I 
testified----
    Mr. Chaffetz. But in April, you said you knew in April that 
there were missing emails.
    Mr. Koskinen. Yes. And I filed a report with the Congress.
    Mr. Chaffetz. How can you simultaneously say that you know 
there are missing emails in April, and in June you say, since 
the start of this investigation every email has been preserved?
    Mr. Koskinen. Because Lois Lerner's emails were lost in 
2011, long before the investigation started, and that hearing 
was about the Lois Lerner hard drive crash.
    Mr. Chaffetz. Let me ask you another quote. True or false. 
``We confirmed that the backup tapes from 2011 no longer 
existed, because they had been recycled pursuant to the IRS 
normal policy.''
    On July 23 you said, ``Confirmed means that somebody went 
back and looked and made sure that, in fact, any backup tapes 
that had been existed have been recycled.'' Is that true or 
false?
    Mr. Koskinen. That was true in my belief at the time. 
Congressman Gowdy's exactly right----
    Mr. Chaffetz. Who went back and looked?
    Mr. Koskinen. I was told that the IT department----
    Mr. Chaffetz. Told by who?
    Mr. Koskinen. I was told by people, and you have 
interviewed all of those people.
    Mr. Chaffetz. Who are these people?
    Mr. Koskinen. Who are those people?
    Mr. Chaffetz. Yes.
    Mr. Koskinen. It was the deputy chief information officer, 
whom you have interviewed, who said to me that they had looked 
and they were confident that, in fact--I asked, is there any 
way to get tapes? And he said, they have all been recycled.
    Mr. Chaffetz. But nobody went back and looked. In fact, Mr. 
Camus, who was the deputy there at the Treasury inspector 
general, said, ``The best we can determine through this 
investigation, they simply didn't look for those emails. So for 
the 1,000, over 1,000 emails that we found on the backup tapes, 
we found them because we looked for them.''
    How is it that you spent $20 million, 250 full-time people, 
and you never looked for them, according to the inspector 
general? And you testify that you went back, in fact, and 
confirmed. That is false.
    Mr. Koskinen. That is what I was told at the time. That was 
my understanding at the time. As I have said, if I knew then 
what I know now----
    Mr. Chaffetz. And when did you inform Congress that this is 
your view now? When did you tell Congress that you were wrong 
on this?
    Mr. Koskinen. When the IG reported in 2015, I subsequently 
had a hearing with the Senate Finance Committee about this, and 
I publicly stated in response to the public issues that it was 
a mistake for those tapes to be erased, and I testified with 
the Finance Committee----
    Mr. Chaffetz. You know it was a mistake, but they were 
erased after a duly issued subpoena. That is where we have a 
fundamental problem. You issue 66,000 summons and subpoenas 
each year. You know how to dish it out, but you don't know how 
to take it. And so we issue a subpoena, we expect you to comply 
with it. And when you destroy documents that are under 
subpoena, somebody has got to be held accountable for that.
    Mr. Koskinen. The IG----
    Mr. Chaffetz. And that starts with you. You provided false 
testimony to this Committee, you have provided false testimony 
to the Oversight and Government Reform Committee, and you 
should be held accountable for that.
    I have got about 30 minutes more of questions, Mr. 
Chairman, but I will yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Louisiana, Mr. Richmond, for 5 
minutes.
    Mr. Richmond. I will just, Mr. Chairman, I will just kick 
off where my good friend from Utah left off, and that is 
conversations about being held accountable.
    You don't know me, but I did criminal defense for a while, 
and I was a State rep, and in Louisiana I watched many people 
get indicted and go to jail for the misuse of nonprofit funds. 
And in your testimony, you say that one of the important things 
with the IRS is for people to feel that they will be treated 
fairly and that it doesn't make any difference who they are, 
what organizations or what political party they belong to.
    Well, let me just tell you, there are a bunch of people, 
including me, that think that the justice system is rigged for 
those who are privileged and those who are rich. So for the 
people that I have seen go to jail for misappropriating $2,000, 
$3,000, $5,000, $8,000, and we have an indictment that is 
pending right now, the question becomes, how can someone take 
money that belongs to a nonprofit to satisfy a personal 
judgment and that not be a misappropriation of the nonprofit's 
funds?
    Mr. Koskinen. I don't know the details. All I can say, as I 
have said, the law is clear, a (c) organization cannot use its 
assets to benefit anyone who is closely associated with the 
organization.
    Mr. Richmond. And to pay off a personal judgment would be a 
benefit to a person, not an organization?
    Mr. Koskinen. Whatever you use to not pursue charitable 
purposes, but to benefit anyone associated with it, the law 
says you should not--it is not allowed.
    Mr. Richmond. Let me just say this, and I wasn't even going 
to bring that up, because I think today is a very unfortunate 
day, but it signals what this Congress has been about and why 
our approval rating is so low and why our reputation is the do 
nothing Congress. We do do something. We grandstand and 
showboat on a regular basis.
    This Judiciary Committee in this room weeks ago, after 
Philando Castile and Alton Sterling were killed by law 
enforcement, I begged for a public hearing on the issue, 
because I really think that the public deserves it, and I think 
if we don't do it, we are going to have blood on our hands.
    Well, unfortunately, police officers were killed. This week 
we have two more incidents where two people were killed in an 
incident with law enforcement, or two people lost their lives 
in an incident with law enforcement. But we are not talking 
about it. We are talking about a fragile country, we are 
talking about fragile people, and we are ignoring a humongous 
issue, because we are talking about impeaching you.
    In Louisiana, we just had 7 trillion gallons of water 
dumped on Baton Rouge and the surrounding areas. Just in Baton 
Rouge, we lost 60 sheriff deputy cars, we lost 50 police cars, 
we have a law enforcement that is dismantled.
    But we are not having a hearing here today to talk about 
how we get them back up because there is a pending Alton 
Sterling decision that has to come out and how do we protect 
American citizens and how do we keep their communities safe 
when that decision comes out, because we know it is coming, but 
we are, again, talking about impeaching you with 50 something, 
I don't know, 100 days left in our term.
    We keep grandstanding while America is burning. There are 
some who would rather talk about Colin Kaepernick not standing 
for the national anthem than to talk about people losing their 
lives by the hands of law enforcement.
    This is the Judiciary Committee. We don't even 
acknowledge--we are not even talking about the fact that we are 
losing law enforcement officers. We don't even have enough 
bulletproof vests for the sheriffs in the United States of 
America. But we are talking about impeaching you. We just had 
police officers and sheriffs gunned down in Dallas and in Baton 
Rouge, but they don't have police vests, and we are talking 
about impeaching you.
    Somewhere, somehow you have to say, what are these guys 
thinking, what are these guys and women doing? Do they not 
realize that we have a crisis in America, and we are talking 
about impeaching you, which, you know, is laughable at its best 
if it wasn't so sad, that all of a sudden this becomes the 
biggest priority that we have.
    And, Mr. Chairman, I would just again urge, and I want to 
be on the record every time we talk, that we need a public 
hearing so that people understand how serious we are taking the 
policing in America issue, because, again, if people don't 
understand we are taking it serious, they will continue to take 
it in their own hands, people that are mentally disturbed will 
do unimaginable things, and it is all on us if we don't get 
together and talk about it.
    With that, I will yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentleman from Texas, Mr. Gohmert, for 5 minutes.
    Oh, for what purpose does the gentleman from Utah seek 
recognition?
    Mr. Chaffetz. I would just ask unanimous consent to enter 
into the record the GAO report from July 2015, ``Internal 
Controls for Exempt Organization Selection Should Be 
Strengthened.'' Critical that, as Mr. Jordan talked about, that 
the IRS has not fixed the targeting problem.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.**
---------------------------------------------------------------------------
    **Note: The submitted material is not printed in this hearing 
record but is on file with the Committee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105349
    Mr. Goodlatte. And now Mr. Gohmert is recognized.
    Mr. Gohmert. I appreciate my friend from Louisiana pointing 
out the grandstanding. That is kind of what I felt about the 
sit-in that occurred on the House floor and my friends across 
the aisle refusing to recognize that radical Islam is at war 
with us, and instead they talked about guns. I am looking 
forward to the grandstanding about pressure cookers and the 
need to make them illegal.
    But this hearing is about whether or not, Mr. Koskinen, you 
committed such acts as should cause you to be removed from 
office. And it has already been mentioned that you had 
testified that you were made aware of problems associated with 
Ms. Lerner's emails the same month that Ms. Duvall discovered 
the gap and that you had withheld that information, didn't 
disclose it for 4 months, until June 13 of 2014, and that 
during that time, you had testified before Congress four times.
    So I want to ask you, during those four times you testified 
after you learned about the problems with Ms. Lerner's emails, 
did it cross your mind at all that perhaps you should disclose 
that, that there were problems with Ms. Lerner's emails?
    Mr. Koskinen. If I could correct the record. I have 
testified, and honestly, I learned about the Lois Lerner email 
crash in April. Between April and the time we provided the 
report to the Congress, I did not have a hearing. The hearings 
in June were about the Lois Lerner hard drive crash. But I have 
also stated, and the reason I did not immediately report that 
crash was because I instructed people to see how many emails 
from the crash period we could recover, and we recovered 
24,000.
    But as I have said, in retrospect, because it did create a 
certain amount of aggravation on the part that I understand of 
at least some Congressmen, in April, when I was advised, if I 
had to do it again, I would advise the Congress that we had a 
hard drive crash and we were now----
    Mr. Gohmert. So is it your opinion that once you have 
testified before Congress, if you learn information that makes 
your prior statements not completely true, that you have no 
obligation to come forward, send a letter, send an email, send 
a message that you have now learned things, or in your opinion, 
should you just wait until you are asked, and if you are not 
ever asked, you have no need to disclose? Which is your 
opinion?
    Mr. Koskinen. I didn't wait until I was asked. We actually 
produced a full report to all of the investigative Committees 
about the process. But as I have said, when I learned of it in 
April, life would have been a lot easier if I had simply 
advised the Congress.
    Mr. Gohmert. Well, you----
    Mr. Koskinen. But since that time, we have advised the 
Congress----
    Mr. Gohmert. When you found out there were problems--did 
you know Lois Lerner used a BlackBerry, that she had a handheld 
device?
    Mr. Koskinen. I did not, but that BlackBerry was in the 
hand of the IG from 2013.
    Mr. Gohmert. Did it cross your mind that she may have had a 
portable device that was used to send and receive email?
    Mr. Koskinen. No. I was not analyzing Lois Lerner's 
activities. I was working and instructing people----
    Mr. Gohmert. You knew there were requests for Lois Lerner's 
emails and it never crossed your mind she might have them on a 
personal device that she carried? That never crossed your mind? 
Did it cross your mind that there was this facility in 
Martinsburg, West Virginia, where storage was kept? Did that 
cross your mind?
    Mr. Koskinen. No. I was focused, as the agency was, on 
reviewing all the emails we could, get emails. We had to pull 
each hard drive out of the computer and----
    Mr. Gohmert. Mr. Koskinen, when you are asked under oath 
about the existence of emails, there really is an obligation to 
learn about the emails and where they are and where they exist.
    Let me just read for you--I hope you are familiar with the 
Internal Revenue Manual. You are, hopefully?
    Mr. Koskinen. Yes.
    Mr. Gohmert. Thank you. Well, this was added January 23, 
2014, 25.1.1.2. ``Fraud is deception by misrepresentation of 
material facts or silence when good faith requires 
expression.''
    And I would submit to you, Mr. Koskinen, you have had ample 
opportunities over the last 2 years to disclose things or maybe 
to make inquiry, but it certainly appears you have what might 
be called willful ignorance so you don't have to come up here 
and testify about what actually happened.
    It is hard to believe that you never made any inquiry about 
potential places that Ms. Lerner's controversial emails that 
may have been lost, may not have been lost, where they might be 
found. It shocks my conscience that the head of the IRS would 
not think to ask any questions other than, can anybody find her 
emails? You require so much more from taxpayers.
    And then we give you 290 million more dollars, and what 
happens? You start closing local tax assistance offices for 
taxpayers, like in Longview, Texas, and the excuse is, well, we 
got our budget cut. Yeah. This year you got $290 million more; 
2 months later you are closing offices to hurt taxpayers. It 
looks like there is a problem with the management at the IRS.
    And I see my time has expired, so I yield back.
    Mr. Goodlatte. The time of the gentleman has expired. The 
Chair recognizes the gentleman from New York, Mr. Jeffries, for 
5 minutes.
    Mr. Jeffries. Mr. Commissioner, thank you for your presence 
and for your service.
    The chief sponsor of the impeachment resolution that 
resulted in this hearing is Republican Representative John 
Fleming from Louisiana. Is that correct?
    Mr. Koskinen. It is my understanding he is one of the 
proposers.
    Mr. Jeffries. And Congressman Fleming is currently a 
candidate for the United States Senate. Is that right?
    Mr. Koskinen. My understanding. I am learning from 
Congressman Gowdy.
    Mr. Richmond. Yes, he is.
    Mr. Jeffries. Are you aware that Congressman Fleming is 
currently running television advertisements as part of this 
campaign that claims that the head of the IRS--that would be 
you--ordered 24,000 emails erased?
    Mr. Koskinen. I am aware of that.
    Mr. Jeffries. But the facts have already been established, 
I think, that the emails were inadvertently wiped by two low-
level employees. Is that right?
    Mr. Koskinen. That is correct.
    Mr. Jeffries. And these employees work the midnight shift. 
Is that correct?
    Mr. Koskinen. Yes.
    Mr. Jeffries. And they work the midnight shift at a 
facility in the blooming metropolis known as Martinsburg, West 
Virginia. Is that right?
    Mr. Koskinen. That is correct.
    Mr. Jeffries. Now, the Treasury inspector general is a 
Republican. Is that right?
    Mr. Koskinen. Yes.
    Mr. Jeffries. And he issued a report on June 30, 2015, 
which concluded ``that no evidence was uncovered that any IRS 
employees had been directed to destroy or hide information.'' 
Is that correct?
    Mr. Koskinen. That is correct.
    Mr. Jeffries. The Republican-led Senate Finance Committee 
has uncovered no such evidence, true?
    Mr. Koskinen. That is correct.
    Mr. Jeffries. The Department of Justice conducted an 
independent investigation and also concluded that no IRS 
employee, from top to bottom, had been directed to destroy or 
hide information. Is that correct?
    Mr. Koskinen. That is correct.
    Mr. Jeffries. This is not a legitimate impeachment hearing. 
This is a political charade, it is a sham, it is a Hollywood-
style production. The outcome has already been predetermined, 
the script has already been written, the witness has already 
been labeled a bad guy, because in any Hollywood-style 
production, there must be a villain, and who better than the 
commissioner of the IRS.
    But here is the problem. The Founding Fathers of this 
Nation gave to this House the power of impeachment as an 
extraordinary remedy only to be used in serious circumstances. 
It is not a high crime or misdemeanor to be the head of an 
agency that some of my friends on the other side of the aisle 
don't like as part of an Administration that some of my friends 
on the other side of the aisle don't like.
    But it has been clear to me, as my good friend from 
Louisiana indicated, Rome is burning right now in the midst of 
a police violence crisis, but we are on this reckless 
legislative joyride to impeach the commissioner of the IRS.
    Why is that? Well, perhaps there are some in this town who 
have been determined to impeach a member of the Obama 
administration from the day that the President of the United 
States was sworn in, in January of 2009, but you couldn't 
impeach Barack Obama, you couldn't impeach Eric Holder, you 
couldn't impeach Hillary Clinton, and so some genius came up 
with the brilliant idea that we are going to go after the IRS 
commissioner.
    It is a dereliction of duty, it is the only reason why we 
are here today, and it is a waste of the time and the treasure 
of the American people.
    I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Idaho, Mr. Labrador, for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, Mr. Koskinen, for being here.
    Your testimony suggests and what was just indicated by my 
friend suggests that impeachment is improper, and that you have 
attached many exhibits to that effect. You further stated that 
you are unaware of anyone on your level having been impeached 
in the past.
    In fact, you sent us a letter from a bunch of college 
professors, law professors, that says, the reason for the 
salutary exercise of self-restraint by the House, meaning that 
we have never impeached anybody at your level, is that in our 
constitutional system, primary responsibility for supervising 
executive branch officials resides with the President, not with 
the Congress.
    But the question that we have to answer in this hearing is, 
what happens when the President is not exercising that 
supervision over somebody like you?
    So maybe the question is not whether impeachment is proper, 
but maybe the question is, why, after all of these disturbing 
instances of lack of candor, lack of transparency, and lack of 
fitness to serve, you still believe that you can competently 
serve as the commissioner of this agency?
    This country may not have a long history of impeachment at 
your level, but certainly we have a long, long history of 
officials at your level who have been subject to dismissal and 
resignation for similar or even lesser offenses than what you 
have perpetrated.
    Are you familiar with Michael Brown, the former director of 
FEMA?
    Mr. Koskinen. I do not know him, but I know the position he 
held.
    Mr. Labrador. And do you know what happened to him 
following his mismanagement of the Katrina efforts?
    Mr. Koskinen. I do not recall specifically. I know 
ultimately he left the government, but I don't know the 
circumstances.
    Mr. Labrador. Yeah, he resigned from office.
    Are you familiar with former DEA Administrator Michelle 
Leonhart? Do you know what happened to her following the 
release of a watchdog report on agent misbehavior under her 
watch?
    Mr. Koskinen. I do not.
    Mr. Labrador. She resigned from office.
    Are you aware of what Katherine Archuleta, the former OPM 
director, did following the 2015 OPM hacks by foreign 
governments?
    Mr. Koskinen. That, I do understand.
    Mr. Labrador. And what did she do?
    Mr. Koskinen. She resigned.
    Mr. Labrador. She resigned. There are many examples of 
this, including the resignation of Secret Service Director 
Julia Pierson following security breaches and ATF head Kenneth 
Melson over Fast and Furious.
    While I could, I am not going to spend my entire 5 minutes 
providing you with examples of agency heads at your level who 
have resigned based on agency failures. But, however, I am 
going to suggest to you why this is not a dereliction of duty. 
Your boss has refused to actually hold you accountable for your 
actions, so there is only one branch that can do that, and that 
is our branch.
    Instead, I want to ask you, do you dispute that over 24,000 
emails responsive to a congressional subpoena and investigation 
were destroyed during your tenure?
    Mr. Koskinen. I do not.
    Mr. Labrador. Do you dispute that you testified before the 
Oversight and Government Reform Committee after that 
destruction that it was your intention to comply with the 
request for evidence and that you were planning on turning over 
all relevant email communication?
    Mr. Koskinen. That testimony was not after anyone knew 
about that erasure.
    Mr. Labrador. But you testified that after that happened.
    Mr. Koskinen. No. I----
    Mr. Labrador. Was anyone at----
    Mr. Koskinen. Yeah. I am sorry. I did testify after it 
happened, just nobody knew it had happened.
    Mr. Labrador. Was anyone at the IRS, including the two low-
level employees that you keep blaming for this, was anybody 
fired due to the destruction of evidence?
    Mr. Koskinen. I would like the record clear, I don't blame 
them. At the time, I didn't blame them. The IG did a year 
investigation and found it was a mistake.
    Mr. Labrador. Were they fired?
    Mr. Koskinen. They were not----
    Mr. Labrador. Was anybody fired for the destruction of 
evidence?
    Mr. Koskinen. Those two people were not fired. The IG 
determined it was an honest mistake on their part.
    Mr. Labrador. So no substantive corrective action has been 
taken. So ultimately, sir, I will do what you asked us to do. I 
will judge you on your overall record. Your inability to 
successfully preserve the information requested and your so-
called mistaken testimony clearly demonstrates that your 
overall record is one of gross incompetence and extreme 
negligence, and that your department exhibited such, or worse 
yet, there was some intentional deception.
    We shouldn't need the articles of impeachment that we are 
talking about today and we shouldn't need these hearings, 
because you, Mr. Koskinen, should have resigned for your 
failures to properly carry out your duties and for failure to 
bring the transparency that you promised during your 
confirmation hearings.
    And with that, I yield back my time.
    Mr. Goodlatte. The time of the gentleman has expired. The 
witness will be permitted to respond if he chooses to.
    Mr. Koskinen. Pardon?
    Mr. Goodlatte. You can respond.
    Mr. Koskinen. No, I think if--I have an overall record at 
the IRS that I am proud. We have made significant progress 
across the board. I have talked about----
    Mr. Goodlatte. You have to respond to the specific----
    Mr. Koskinen. But on the specific issue, I do not think 
that the mistakes, honest mistakes made by two employees are 
the grounds for either resignation or certainly not for 
impeachment. If, in fact, every time an employee makes an 
honest mistake in an agency, the expectation is that the head 
of that agency should resign, we are not going to have many 
agency heads around.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Rhode Island, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Commissioner, for being here today and for your 
service.
    There is clearly no evidence that the charges being leveled 
at you today have any validity whatsoever. In fact, multiple 
independent and bipartisan investigations have found that you 
in no way purposely misled Congress in any of your statements.
    The Treasury inspector general, the Senate Finance 
Committee, and the Department of Justice have each conducted 
their own investigations on the so-called IRS targeting 
scandal, and while these investigations uncovered various 
management problems at the IRS, there was no evidence to 
support allegations of criminal activity or politically 
motivated behavior. There was no evidence to support 
allegations that you deliberately misled Congress or attempted 
to obstruct a congressional investigation.
    In fact, each of these investigations found no evidence 
whatsoever that you acted in bad faith. Under your direction, 
the IRS has spent $20 million and devoted more than 160,000 
hours to collect, review, and produce 1.3 million pages of 
documents to investigating Committees.
    The entire record, built on multiple investigations, fails 
to support the allegations leveled here today. And it is 
regrettable that rather than dealing with the issues of 
criminal justice reform, immigration reform, commonsense 
proposals to reduce gun violence, that we are taking up time in 
this Committee for this charade.
    So I want to ask you, since you are here, about the 
political contributions of charitable foundations. First, is it 
legal or illegal for a charitable foundation to make a 
political contribution?
    Mr. Koskinen. The law is clear, any (c)(3) or--any (c)(3) 
organization cannot make a political contribution. 527s can be 
in business, have to be in business totally to make political 
contributions. (C)(4)s, the rule is, as long as their primary 
purpose is social welfare, they can make political 
contributions.
    Mr. Cicilline. So if a charitable foundation makes a 
political contribution and the IRS becomes aware of it, you go 
through a process in which you impose a penalty, correct?
    Mr. Koskinen. We would go through a process of doing an 
audit and an investigation to determine the details.
    Mr. Cicilline. And if you determine that such a political 
contribution was made in violation of law, you impose a 
penalty?
    Mr. Koskinen. There would be penalties if that was the 
final determination.
    Mr. Cicilline. And in deciding the level of punishment, the 
kind of penalty that the IRS will impose, you look at whether, 
for example, it is an honest mistake or whether someone did it 
intentionally and then tried to cover it up. You would treat 
those two categories differently.
    Mr. Koskinen. We certainly would. We would always in any 
audit hear from the taxpayer and make our responses 
accordingly.
    Mr. Cicilline. So in the case of a contribution made by the 
Trump Foundation of $25,000 in which they made that 
contribution to a political action committee for the benefit of 
the attorney general candidate Pam Bondi, shortly before she 
decided not to pursue a criminal charge or any other 
investigation against the Trump Foundation, on the filing of 
the foundation, they put as a place that they made a $25,000 
contribution instead an organization called Justice for All, 
which is a Wichita organization, which they never made a 
contribution to, which sounds just like And Justice for All, 
the only inference, I think, would be in an effort to cover up 
an illegal political contribution.
    In those circumstances, the IRS would impose a more severe 
penalty, correct?
    Mr. Koskinen. I don't mean to be unresponsive. As I say, my 
goal here today is to answer questions. But as I say, when 
hypotheticals start to get very specific, it is inappropriate 
for the IRS or the commissioner to respond.
    Mr. Cicilline. Well, Commissioner, you have been 
undoubtedly following the extraordinary coverage of the 
operation of the Trump Foundation as it relates to these 
political contributions in the media, correct?
    Mr. Koskinen. Well, I read newspapers every day.
    Mr. Cicilline. Okay. Well, is someone at the IRS reviewing 
this or will someone initiate some review of these illegal 
political contributions by the Trump Foundation?
    Mr. Koskinen. As I have tried to make clear, we never talk 
about the status of any taxpayer. And we get referrals from the 
public, from Members of Congress suggesting that we look into 
particular activities of companies, charitable organizations, 
and others. There is a process with appropriate reviews and 
controls it goes through. But we never respond.
    Mr. Cicilline. Okay.
    Mr. Koskinen. If you write us a letter, we tell you thank 
you for the letter; we don't tell you what the action is we are 
going to take.
    Mr. Cicilline. Thank you.
    Mr. Koskinen. And so I can't tell you.
    Mr. Cicilline. Thank you, Commissioner.
    And so one final question. An issue which has been raised 
by my constituents with some frequency are difficulties they 
have when they call the IRS and they are put on hold for an 
extended period of time, really unreasonable lengths of time as 
they are waiting to speak to an IRS official.
    Can you talk about what efforts are being made to reduce 
that waiting time? And more generally, would you address the 
impact of the deep budget cuts on your ability to deliver 
services to my constituents and to constituents all across this 
country?
    Mr. Koskinen. Well, if I could respond, the question was 
raised by the Congressman from Texas about what we do with the 
$290 million. What we did with that was we hired, partially--we 
hired a thousand people during tax filing season, and the level 
of phone service went from 37 percent, a totally unacceptable 
rate the year before, to 70 percent. But because the amount of 
money provided was less than half of what we requested, I 
advised the appropriators that after the end of the filing 
season, the people we had hired, the money ran out, and the 
people would go away.
    So our level of taxpayer service right now is back to an 
unacceptable level. It is a simple algorithm: If we have the 
money, we hire the people, they answer the phone; if we don't 
have the money, we don't have the people, then we don't have 
enough people to answer the phone.
    Mr. Cicilline. So the people who are being required to stay 
on those phones and wait for an IRS, Commissioner, don't have 
you to blame, they have Congress to blame for not appropriating 
the resources necessary to serve our constituents properly?
    Mr. Goodlatte. The time of the gentleman has expired. The 
witness will be permitted to answer the question.
    Mr. Koskinen. I have tried to make it clear to 
appropriators in the Congress that it is--you know, we do the 
best we can. We have an obligation to provide taxpayers the 
best service we can. But it is a direct correlation between the 
amount of funding and the amount of service we can provide.
    The $900 million cuts over the last 6 years means that we 
are significantly constrained. We did appreciate the $290 
million from the Congress and we provided reports on how we 
actually used all of those funds for protecting taxpayers, 
cybersecurity, and taxpayer service.
    Mr. Cicilline. Thank you, Commissioner.
    I yield back, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Chairman Goodlatte.
    Commissioner Koskinen, you testified in response to a 
couple of questions that as a result of the Lois Lerner 
treatment of conservative organizations, several people are no 
longer with the IRS. Were any of those people fired or did they 
all resign?
    Mr. Koskinen. I actually don't know. All of that happened 
before I got there. All I know is the five people in the order 
either resigned. There were reviews done on a personal basis, 
and I don't know which of those people resigned and which of 
them resigned in the face of, in some cases, knowledge they 
were about to be fired. But I don't know that, and if I did 
know, I wouldn't be able to tell you the details anyway.
    Mr. Farenthold. And you talked about these two gentlemen 
who degaussed the tapes and you have repeatedly said that it 
was an honest mistake. Do you know if these gentlemen were 
aware of the order to preserve data?
    Mr. Koskinen. I have not done the investigation. The IG's 
investigation reported that they were not aware, that they 
actually thought--these were labeled as junk and they thought 
it was junk. They had already degaussed some earlier, 2 years 
ago. And their understanding, they were junk. They came with a 
label saying for disposition, and they disposed of them.
    Mr. Farenthold. And you testified that you got the word out 
as a result of the subpoena not to destroy any evidence. How 
did you get that information out?
    Mr. Koskinen. The word was already out in the spring--in 
the summer of 2013.
    Mr. Farenthold. Right. But how did you communicate it to 
the employees where, when someone who is in charge of 
destroying a potential media that would contain these didn't 
get a hold of it? Was there an email?
    Mr. Koskinen. Yes. There were emails in 2013; there were 
further emails in 2014. But as I have said, it shouldn't have 
happened, and it clearly was not an appropriate level.
    Mr. Farenthold. So what I am getting is the fact that this 
email did not get to people who actually physically destroy 
backup tapes seems to indicate a management failure. So I would 
ask that you would get us copies of those emails and who they 
were distributed to.
    You know, I am a small-business man, I have never had more 
than about 40 people working for me. But if we were to get an 
order from Congress or a court or the IRS not to destroy 
evidence, we would--I mean, we would probably pull the hard 
drives out of all the computers so something isn't actually 
erased accidentally.
    As an attorney, I know that a claim of spoilation of 
evidence really weighs against you. In Texas, you are entitled 
to a jury instruction telling the jury that you can assume the 
worst was in those emails.
    Mr. Koskinen. I have been educated by Congressman Gowdy 
about spoilation since I did not know it originally. It takes--
it has to be an intentional destruction for it to be assumed 
that, in fact, you can assume the worst. There was thus far no 
finding that it was intentional.
    Mr. Farenthold. I am going to go a little bit and take a 
step back, because, you know, we are talking about articles of 
impeachment against you.
    One of the things I hear consistently from my constituents 
in Texas is, all you guys in Congress do is go yell and scream 
and beat on your chest. In fact, I hear it from some of the 
folks on the other side of the aisle.
    When we find wrongdoing in government, Congress has a 
limited number of remedies. We can write a law to change it, 
try to fix things, but that has got to get passed by the Senate 
and signed by the President. So if it is something the other 
side doesn't like, right now this Congress is out of luck.
    You know, people say, oh, you have got the power of the 
purse, but the Senate won't take up our appropriations bills 
and we are continued to forced to do continuing resolutions and 
face claims of, oh, you are shutting down the government and 
all of this nonsense. So the power of the purse is basically 
gone.
    We had Eric Holder held in contempt of Congress, we had a 
Committee recommend criminal charges against Lois Lerner 
herself, and last week Brian Pagliano refused simply to show 
up, and the Justice Department isn't doing anything.
    So our bag of tricks is getting kind of shallow, and 
impeachment is in there. And I think one of the reasons we are 
pulling it out is that the Justice Department and the Obama 
administration are failing to cooperate with Congress. The 
Justice Department, rather than being the people's lawyer, are 
turning out to be the Administration lawyers, and you may be 
the victim of this.
    I mean, do you have any suggestions on how we should get 
more cooperation from people before this Committee, the 
Oversight Committee, and the rest of Congress?
    Mr. Koskinen. Well, whatever the Oversight Committee is 
doing, they take--they have noted on their Web site, or at 
least it was until recently on their Web site, 20 executives in 
the government that they thought should be removed or leave. 
They have big pictures and they have big red X's through 18 of 
them. So they have been successful 90 percent of the time. I am 
one of the two that they have not thus far been able to get----
    Mr. Farenthold. I guess the other weapon we have are these 
hearings in getting the public behind us on that.
    And I appreciate your courage coming here and testifying.
    Mr. Koskinen. Thank you.
    Mr. Farenthold. But I really am disappointed that these 
things happened, and happened under your watch, and the buck 
has got to stop somewhere.
    And I see I am out of time.
    Mr. Goodlatte. Would the gentleman--without objection, the 
gentleman is granted an additional 30 seconds. Would the 
gentleman yield?
    Mr. Farenthold. Yeah, I will.
    Mr. Goodlatte. Thank you. You asked a question that 
Chairman Chaffetz and I would both like to pose to the 
commissioner a slightly different way.
    Can you please provide to this Committee and to the 
Committee on Oversight and Government Reform any written 
communication, not just emails, any written communication that 
you or anyone else made instructing IRS employees to preserve 
records responsive to congressional subpoenas?
    Mr. Farenthold. And who it went to.
    Mr. Goodlatte. And who they went to.
    Mr. Koskinen. Yes. We will be happy to do that.
    Mr. Goodlatte. Thank you.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Bishop, for 5 minutes.
    Mr. Bishop. Mr. Commissioner, thank you very much for being 
here. Thank you for your time and your patience answering the 
questions today, much of which has been asked and re-asked.
    I apologize if I get into that area, but I represent 
770,000 constituents, all of which have an opinion about 
something, as well they should, but not many resonate, not many 
issues resonate as they have on this issue in particular with 
the IRS, because it impacts everyone.
    And the question has to do with the way in which it is 
hypocrisy that the IRS expects citizens to live up to a certain 
standard but doesn't hold themself to that very standard. And 
as a former businessman and person who complied as a citizen, I 
am asked to comply with the IRS. If I were audited and the IRS 
showed up at my doorstep and they said, ``Where is the 
information?'' and I said, ``My server crashed, sorry,'' I 
don't think the IRS would be as lenient with me as the 
government has been with the IRS in such a circumstance.
    So this is what angers people, this is why a hearing like 
this happens. And I think this is regular order for a Committee 
like this to bring this issue forward, because, as my colleague 
said earlier, we have run out of options. Our job is to oversee 
and make sure that government runs properly and according to 
law.
    And my frustration sitting on this Committee and being a 
part of all this is that it doesn't operate that way, that we 
very infrequently have real oversight, that those who come 
before this Committee oftentimes just stare us down and go on 
their merry way, they take a lashing and leave, as though they 
have done their job.
    But it is very frustrating for me. I have learned that--I 
will not accept it. This all has to change.
    But I want to ask you, the IRS has promised to deliver all 
of Lois Lerner's emails relating to the targeting of various 
conservative organizations, but was unable to because her hard 
drive had failed and a substantial amount of backups--the 
backups were destroyed as well. I wanted to ask you about the 
backups.
    Ordinarily there is a forensic research--if I am running 
these operations, I go and make sure that every possible 
remedy, every possible option was taken to ensure that we 
checked everything, to find everything that was asked of us.
    Can you tell us whether or not the IRS reviewed the backup 
tapes or any information? For example, did they go back and 
look at the hard drives that handled Lois Lerner's emails? Did 
they look at the email server? Did they look at the BlackBerrys 
that she had then or has now? All of these things. Laptops, did 
she have more than one?
    What was done to try and preserve this information, this 
critical information for this Committee and the American 
people?
    Mr. Koskinen. As I noted, there were--well, all of this 
started, the investigations started 6 months before I got 
there. There were instructions issued to preserve all media, 
and we will share those with the Committee.
    The decision in 2013 trying to respond was the most likely 
place to find these emails was in the hard drives in all of the 
employees. Hard drives of 88 or 90 employees were pulled, they 
were reviewed. We had an agreement with the Committees as to 
what the searches would look like to make sure they were 
getting everything responsive to the inquiries. And that is how 
we ended up with 1,300,000 pages of documents.
    With regard to Ms. Lerner, there were--78,000 of her emails 
were provided, 24,000 from that gap period. When I was advised 
of the gap period in April, I said we need to go and look at 
everybody she communicated with, because if there was an email 
in her box, it was on somebody else's as well, and we found 
24,000.
    Mr. Bishop. Can I ask you this? Did she ever, after all 
this happened, did she ever come to your IT department and say, 
``Someone help me find these emails''?
    Mr. Koskinen. There are emails----
    Mr. Bishop. Because if my computer crashed, I would say it 
is critical, especially if I were the director of the IRS. I 
would immediately go to the IT department and say, ``Please 
help me. Something has gone wrong here. Find my emails.''
    Mr. Koskinen. And there are emails in which she wrote to 
the IT--sent to the IT department in 2011 saying, my hard drive 
looks like it doesn't work. It has crashed. Could you fix it? 
The hard drive was reviewed and worked on by IT, and they sent 
her a note back saying, we can't find any of the emails. She 
was, according to the emails, unhappy and upset that the emails 
had been lost. And they said, the only way to conceive of it 
would be to send it out somewhere with experts, and they didn't 
do that.
    But they did have--there are contemporaneous emails, which, 
ironically, were provided to everybody in the end of 2013. So 
it is not as if there was a conscious effort to hide the issue 
that her hard drive had crashed. And she had, as you said, been 
very concerned and asked for help to try to fix it.
    Mr. Bishop. Mr. Chairman, my time has expired. I yield 
back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Michigan, Mr. Trott, for 5 minutes.
    Mr. Trott. Thank you, Mr. Chairman.
    And thank you, Commissioner, for being here.
    You know, Commissioner, you have had an extraordinary 
career. Head of the Soccer Foundation. Head of the Duke 
University Board. Executive chairman at Freddie Mac. Deputy 
mayor of D.C. Deputy director of OMB. Ran a large turnaround 
company. Was in charge of Y2K for the entire country. Clerked 
for the chief judge for the D.C. circuit. Worked at Gibson 
Dunn. Duke. Yale. Cambridge. Just an extraordinary record.
    You said earlier that you are proud of your record at the 
IRS. I am not so sure I agree. You came in with two big tasks 
in front of you, one, the Lois Lerner investigation, and two, 
to restore the confidence in the American people that their 
First Amendment rights weren't being compromised by the IRS. 
And we have heard quite a bit today about our concern with 
respect to both of those challenges.
    But let me ask you a hypothetical. When you were the 
executive chairman of the Freddie Mac board, if the president 
and CEO of Freddie Mac lied under oath to Congress or 
repeatedly misstated important facts or repeatedly was 
uninformed of decisions being made by subordinates regarding 
the mortgage crisis, what would you have done?
    Mr. Koskinen. If he lied under oath to the Congress, we 
would have considered appropriate disciplinary action, which 
might have included termination.
    Mr. Trott. If the president of Duke University, when they 
were doing investigation into the scandal of the lacrosse team, 
if he had lied or if he had misstated key facts or if he was 
otherwise uninformed on what the subordinates were doing with 
respect to that investigation, what would you have done when 
you were the chair of the Duke Board?
    Mr. Koskinen. Well, if he was performing in good faith--you 
are talking about did he intentionally either mislead or 
obstruct issues.
    Mr. Trott. Well, just gross incompetence. Let's call it 
that. Let's not say perjury. Let's just say gross incompetence, 
unaware of the investigation, unaware of the facts, misstating 
the facts consistently. What would you have done?
    Mr. Koskinen. At that point, in fact, we would have a 
discussion. But that doesn't sound like he intentionally--if he 
was totally unaware, then you would have a serious question.
    This is not a situation where the head of the organization 
was totally aware by any stretch.
    Mr. Trott. Let me--this is not a hypothetical--let me ask 
you a more recent set of facts.
    So yesterday, Senator Warren was screaming at the CEO of 
Wells Fargo for what happened there to their customers. And I 
think it is indefensible what happened there. And she called--I 
think she screamed it several times--``He needs to resign.'' Do 
you think the CEO of Wells Fargo should resign?
    Mr. Koskinen. Not a decision for me to make, but the 
distinction is people at Wells Fargo knew for the last couple 
years about that problem. No one at the IRS knew about the 
erasure of those tapes. This is not a situation where people 
knew something and were covering it up. Every time--we spent a 
significant amount of time trying to provide all the 
information we had.
    Mr. Trott. Well, so you think the CEO of Wells Fargo knew 
about what has happening?
    Mr. Koskinen. That is my--all I know is what I read in the 
newspapers, and my understanding is that the question was that 
people knew 2 or 3 years ago.
    Mr. Trott. People or the CEO?
    Mr. Koskinen. I haven't read the details, so I can't tell 
you for sure. Again, to the best of my knowledge, it is--I 
don't know the details.
    Mr. Trott. We have heard a lot today from some of the 
Democratic Members of the Committee that this whole hearing is 
an embarrassment and we should apologize. And here are the 
facts as I know them. People are afraid of the IRS. The IRS was 
used as a political tool under the Nixon administration and now 
the Obama administration. You were brought in to solve this 
problem, and under your watch the problem got a lot worse, 
either because you committed perjury or because you were 
consistently misinformed regarding critical facts in the 
investigation or you were unaware of what your subordinates 
were doing.
    Now, we both know--and I spent 30 years in the private 
sector--we both know in the private sector, the head of the 
organization, with those facts in front of you, they would have 
been fired or they would have resigned.
    And so when the Dems say this is a charade and a game--and 
you could say the same about a lot of things here in 
Washington--but my question to you is, what should I go home on 
Friday and tell me constituents who are afraid of the IRS and 
who are disgusted by Washington?
    Because what happens when these facts are presented in 
Washington is either people lie, they cover up, or we have to 
say, well, you know, we have to expect some level of 
incompetence from the Federal Government, that is why 
Washington is a mess.
    What should I tell my constituents about what is going on 
at the IRS and how, under your tenure, this investigation 
played out? Please give me an answer.
    Mr. Koskinen. The answer to that is no one lied, no one 
covered up. And, in fact, the base issue, the mismanagement 
that led to the improper, totally improper, designation of 
organizations by their names, has stopped, notwithstanding the 
issue that there are three that have litigated and have not 
been decided. We are actually resolving those.
    So I think the answer is, no one lied, no one covered up, 
and, in fact, we take very seriously the obligation to make 
sure that every taxpayer, no matter their political party, 
their beliefs, whether they go to church or not, whatever they 
do, deserves to be treated and needs to be treated, and that is 
our obligation to treat them fairly.
    Mr. Trott. But, sir, you would have to agree with me. In 
the private sector, the head of that organization probably 
wouldn't have survived. Would you agree with that statement?
    Mr. Koskinen. On these facts, the head of that organization 
would survive.
    Mr. Trott. All right. I respectfully disagree. Thank you, 
again, for your time. And I have to say, I don't--I am 
surprised that you haven't resigned. Because with your 
extraordinary career, I think there is a part of you, if you 
disagree with a lot of what we are doing here today would want 
to say, gosh, I just don't need this, and you would move on and 
do something else. But I appreciate you being here.
    Mr. Koskinen. Well, I appreciate that. As I have said, if I 
could, Mr. Chairman----
    Mr. Goodlatte. You may answer.
    Mr. Koskinen [continuing]. I have not resigned, A, because 
I don't think anything has been done that would merit that; B, 
after all of the, well, tugging and hauling and pushing over 
the last year, year and a half, my concern is if I am, in fact, 
forced out and I left, it will simply create a terrible 
precedent trying to recruit people from the private sector, as 
I came, on the ground that people can make allegations that are 
not necessarily subject to a full investigation, can simply 
make allegations charging you that there were threats of 
impeachment or censure, and a lot of people are going to say, 
why should I risk my career or my reputation to do public 
service in that context.
    So my sense is we need to get the closure on this. Because 
I don't think impeachment is proper. And we need to demonstrate 
to people you can come into public service and you have an 
obligation to the taxpayers, you spend taxpayer money, you have 
an obligation to do your best and perform well. And in some 
cases, as we noted, on the Oversight Committee list, there are 
18 out of 20 that they have so-called targeted that have left. 
And if you can't meet the expectations, you don't make 
progress, then you shouldn't be there.
    But the total record here is not just (c)(4)s, where we 
have solved that problem. The total record over the last 3 
years is the IRS and its employees have made tremendous 
progress dealing with a wide range of issues, and I am proud of 
the record.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Wisconsin, Mr. Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Mr. Koskinen, first of all, thank you for coming here. I 
think that you have been able to present your side of the story 
in a very articulate manner in response to both friendly and 
hostile questions.
    I want to make an observation before asking a couple of 
questions. This Administration has made a career or maybe 
history of basically ignoring whatever Congress wants to do in 
furtherance of its constitutional oversight responsibility. 
That includes blowing off subpoenas, delaying things, not 
having full disclosures, covering things up. And in the case of 
Lois Lerner, who was cited for contempt, the U.S. Attorney 
announced that he would not present the contempt citation of a 
separate court in a coequal branch of the government to the 
U.S. District Court for the District of Columbia 30 minutes 
before he left office following resignation.
    That, in my opinion, is an impeachable offense. But since 
he left office 30 minutes after he committed the offense, there 
was nothing that Congress could do. You know, I think we have 
to look at our ourselves. One of the things I think we should 
do is to allow the counsel for the clerk of the House to be 
able to go directly into U.S. District Court to enforce 
congressional subpoenas and, you know, other types of process 
to support our constitutional oversight responsibility.
    And I think a lot of the problems that we have had not just 
with you and with the IRS, but with a lot of the other 
agencies, would be resolved if we could go directly into court 
rather than having to go through the roadblock of the Justice 
Department.
    Now, that being said, I am very curious on how Lois Lerner, 
who as a member of the senior executive service, and who 
developed a reputation as a partisan when she was working for 
the Federal Election Commission, ended up getting to the IRS 
and being put in the position that she was in. I know this 
happened before your time, and I know you probably don't know 
why, but could you tell me, you know, what the process is of 
transferring SCS personnel from one agency to another agency 
and who initiates that and who signs off on that, you know, 
aside from the member of the SCS who is proposed to be 
transferred?
    Mr. Koskinen. Right. You are right, I have no idea how that 
happened when she arrived. As a general matter, at least at the 
IRS I can tell you that, we will, if we have an opening, an SCS 
opening, we will advertise it publicly and it will be open to 
both government executives within the IRS and across the 
government and private sector executives who will then have to 
qualify, determine that they meet the SCS requirements.
    When they apply, there are--there is a preliminary 
screening of all the applications by a panel. There is a 
separate group of senior executives that then interview the 
finalists and make a recommendation then to the commissioner on 
the basis of that review. That second panel is--these are all 
career employees. The only political appointee at the agency is 
the commissioner and the chief counsel.
    That recommendation goes to--in our case right now--that 
group are the two deputy commissioners and the chief of staff 
to the commissioner. They interview then the three or four 
final panelists and a recommendation comes----
    Mr. Sensenbrenner. Let me see. I don't think it was a 
coincidence that Lois Lerner left where she was from at the FEC 
and ended up where she went to in the IRS. You know, there had 
to be some kind of political design involved in that, and I 
think Congress should look into whether there are political 
transfers.
    You know, the other thing, you know, I am proud of the fact 
that I am conservative, and I know you are not. But I think 
that one of the things that all of us who work for the 
government are supposed to do is to engender and increase 
public trust of government institutions, which isn't going very 
well now.
    Now, put yourself in my shoes, you know, somebody who 
represents 715,000 people in Wisconsin. How do I tell my 
conservative constituents that they should increase their trust 
in the IRS and that what happened to a couple of my groups will 
never, ever happen again? Thank you.
    Mr. Koskinen. You could tell them there have been six 
different investigations. The Internal Revenue Service has 
taken every recommendation they have control over and 
implemented it. The IG has reviewed the implementation of the 
IG's recommendation and said we have done a substantial 
progress, made additional recommendations for additional 
training before elections, which we have taken; that we have 
created a risk management operation and organization in the 
agency, where I have now talked to 22,000 IRS employees in 
person in townhalls and one of my pitches to them is everyone 
has to be a risk manager. Everyone has to raise their hand if 
they think anything is not going the way it should, if there is 
a mistake or a problem, so that we can deal with it. And I 
think you tell them we are committed, and I am personally 
committed, that that situation was intolerable and should never 
happen again.
    As I said, you should be able to tell your constituents 
with a straight face that we--still do, even with constrained 
audits and resources, over 1 million audits this year. And I 
think the system won't work if people, when they hear from us, 
think that--wonder who I talked to the wrong way, did I go to 
the wrong meeting, does anybody know that I belong to this 
organization. People should be comfortable that the IRS process 
does not care who they are in person, what their political 
beliefs are, what organization they belong to, who they voted 
for.
    If they hear from us, it is because of something in either 
their application or their return. And if somebody else had 
that same question, subject to resources, they would hear from 
us as well. The system will not work unless we can get 
taxpayers to understand that.
    And I understand--the reason I took this job, was because I 
understand that the mistakes that were made, the intolerable 
operations, were corrosive to public confidence in the agency. 
We touch virtually every American, 150 million individual 
taxpayers file with us. They need to be confident that they are 
going to be treated fairly no matter who they are. And I am 
committed to that, and your constituents have to know we are 
committed.
    The proof ultimately will be in the pudding. People have to 
see in our activities that we, in fact, treat everyone the same 
way. They are all treated fairly. That is our obligation.
    Mr. Sensenbrenner. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Commissioner, when does your term of office 
expire?
    Mr. Koskinen. My term expires, I think it is November, 
either 9 or 12 next year.
    Mr. DeSantis. Of 2017?
    Mr. Koskinen. Yes, I have made it clear I serve--even with 
a fixed term, I serve at the pleasure of the President. So 
whoever the new President is can decide to make a change if 
they would like.
    Mr. DeSantis. So you will offer a resignation, whoever 
comes in, and you will offer to step aside?
    Mr. Koskinen. No, I have a fixed term. So unless I actually 
don't want to fill out my term, I serve at the pleasure----
    Mr. DeSantis. I understand that. But when you say you serve 
at the pleasure, meaning that if the President came to you and 
asked you to step aside, you would----
    Mr. Koskinen. I would.
    Mr. DeSantis [continuing]. If you got fired. But you are 
not going to offer to step aside unilaterally. Correct?
    Mr. Koskinen. That is correct.
    Mr. DeSantis. Okay. Now, there has been talk about due 
process. But I just want to, for the record, we did have a 
hearing in this Committee, I think it was in July. And you were 
invited to come to that first hearing, correct, and you chose 
not to?
    Mr. Koskinen. Sure. No. As I explained to the Chairman, I 
had just come back from abroad. And I had a hearing the next 
day. I explained to the Chairman I would be delighted to come 
any time. And I have been delighted on relatively short notice 
to be here today.
    Mr. DeSantis. Okay. Now, I want to look at your testimony 
today because there has been a lot of talk, I think 
justifiable, about some of the things you have said over the 
course of the investigation later turned out to be false. Now, 
today you testified that the IRS ended the use of BOLO lists 
more than 3 years ago. And that is your testimony. Correct?
    Mr. Koskinen. That is my testimony.
    Mr. DeSantis. Well, how does that square with the D.C. 
Circuit opinion where the IRS made that exact same argument and 
the court rejected that? They said, no, you have not ceased the 
conduct. You have chosen to suspend the use of BOLO lists, 
which means that you are free to attend, you are free to return 
to the offending conduct. And that is what the court found.
    So for you to say you ended the list, when, in fact, you 
suspended them, that is not just me being, you know, nitpicky, 
that is a distinction that the court seized upon and justified 
in its ruling against the IRS. Shouldn't you have said that you 
have suspended the use of BOLO lists?
    Mr. Koskinen. No. The Justice Department has a litigation, 
and that was what they provided. The IG reviewed this matter 
over a year and a half ago and agreed that we had terminated. I 
wrote a letter to all the oversight Committees saying it has 
been clear--however you call it, terminated, suspended, 
whatever----
    Mr. DeSantis. Well, it matters legally because if you are 
suspending it to try to get through a case and then you could 
return to it, the court thought that that was important.
    Mr. Koskinen. Yes. Our----
    Mr. DeSantis. So there is no document, though, that says--
--
    Mr. Koskinen. Document.
    Mr. DeSantis [continuing]. You ended it or does it say you 
suspended it?
    Mr. Koskinen. No. It ends, and I will be happy to share 
with the Committee the instructions given to all people in the 
exempt organization decision with regard to this matter, and 
those instructions went out 3 years ago, and we will share that 
with you.
    The other point----
    Mr. DeSantis. The court rejected that. I mean, you agree 
with that.
    Mr. Koskinen. No, the court did not----
    Mr. DeSantis. The court found that the IRS has simply 
suspended the use of BOLO lists, but that there is--you guys 
have not proven to the court--which that would have been the 
time to do it--that you will not return to the offending ways 
subsequent to the litigation.
    Mr. Koskinen. Well, I can't speak for the Justice 
Department and the litigation. All I can tell you is we have 
provided all of the oversight Committees with the note that we 
have committed and have terminated the use of BOLO lists. The 
question about the three that were pending for 50 years, if you 
are involved with us and then you suddenly go to court, we 
don't continue to process the audit or the return.
    Mr. DeSantis. But the court rejected that argument, as Mr. 
Jordan said. To be fair, the court said that that puts people 
in a catch-22 because you tell them, you know, you are going to 
violate their rights, and then if they seek litigation to get 
their rights, then you say, well, we are going to continue to 
violate your rights until the case is over. And the court 
thought that that was unacceptable, and I do too.
    But let me move on. You have admitted that the subpoenas 
that were issued for Lerner's emails, that the IRS did not 
comply because there were tapes that were destroyed. Correct?
    Mr. Koskinen. That is correct. I mean, if we did not--we 
were supposed to produce evidence. We could only produce the 
evidence we had.
    Mr. DeSantis. And I think that you have acknowledged that 
your June 20, 2014, testimony, you did testify falsely because 
you said, ``Everything has been preserved. Nothing has been 
destroyed.'' And of course, as we have established in March, 
just a few months before that, there were tapes that were 
destroyed containing pertinent emails.
    You also testified that day that ``the IRS confirmed that 
backup tapes no longer existed.'' I remember that exchange 
because I was sitting there. They drilled down to you, what 
does it mean by confirmed. And you said it meant somebody went 
and checked. And of course that wasn't true. Because although 
the IRS had destroyed 422 backup tapes, the IG did find backup 
tapes that were still in existence at the time you made the 
statement.
    You also testified at your confirmation hearings that you 
believed in transparency and report problems as soon as you 
knew about them regarding the Lerner production. But you have 
acknowledged today that you waited 2 months, and that that was 
a mistake.
    One of the other things you said was that the IRS went to 
``great lengths in order to provide Congress with the material 
that it requested.'' You remember making that statement?
    Mr. Koskinen. I do.
    Mr. DeSantis. Is that false? Did you go to great lengths to 
provide it? And here is why I ask that. You never--nobody in 
your organization ever went to the Martinsburg, West Virginia, 
warehouse where they had the backup tapes. I put it on Google 
maps today. It is about 76 miles from the District of Columbia. 
You have complained about how costly it has been to provide 
information to Congress in the past, but, in fact, that would 
have taken probably a tank of gas to get there and back.
    And yet, the inspector general, when they went there, even 
though you said you went to great lengths, nobody from your 
organization had ever gone to retrieve any backup tapes. Isn't 
that true?
    Mr. Koskinen. We went to great lengths to respond to the 
congressional request. We provided----
    Mr. DeSantis. But those great lengths did not involve 
getting in a car, driving 76 miles, asking for the backup 
tapes, and then bringing them to Congress. That was a bridge 
too far for you.
    So let me--I am almost out of time. Let me just end with 
this.
    Mr. Koskinen. Okay.
    Mr. DeSantis. There has been disputes about did he order 
the tapes destroyed or whatever. I don't think that that is 
even the standard. Obviously if you did that, that is a no-
brainer. But I believe Justice Story was right when he talked 
about impeachable offenses being political offenses that grow 
out of personal misconduct or gross neglect. And he said they 
must be examined upon very broad and comprehensive principles 
of public policy and duty.
    I think that the IRS had a duty to provide Congress the 
information. The IRS breached the duty. I think you had a duty 
to display candor in front of Congress. I think your false 
statements--although you can say you didn't intend them--I 
think had you investigated more, you would have known. So I 
think it is really about breach of duty and about the gross 
negligence that is at issue here.
    I am out of time, and I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Ratcliffe, for 5 minutes.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Commissioner Koskinen, I have listened to you today. I want 
to make sure that I am summarizing the testimony that I have 
heard from you and the things that I have heard you say today. 
I think you've been candid in some of your testimony today, but 
I want to make sure I am summarizing what has happened on your 
watch as the commissioner of the IRS for the last 2 years and 9 
months.
    So I think you have acknowledged that there have been some 
failures by the IRS under your watch with respect to the 
retention and preservation of documents. Correct?
    Mr. Koskinen. That is correct.
    Mr. Ratcliffe. And I think you have acknowledged that there 
have been failures by the IRS under your watch with respect to 
the production of documents and other evidence. Correct?
    Mr. Koskinen. No. We have produced all the documents. Our 
failure was, in fact, with the documents that we did not have. 
But we have produced, as I say, 1,300,000 documents.
    Mr. Ratcliffe. Well, you have acknowledged failures by the 
IRS to testify accurately under oath, specifically yourself on 
a number of occasions. Correct?
    Mr. Koskinen. That is correct. I did testify on the basis 
of what I knew, but it was not--turned out not to be accurate.
    Mr. Ratcliffe. There is a difference between testifying 
truthfully and testifying to the best of your knowledge. 
Correct?
    Mr. Koskinen. No. Actually, truthfully is what you know. 
Truth is, you know--if I had known it and I hadn't testified 
about it, that would be a lie. That would be untruthful. At the 
time, I testified--I have had over--close to 40 hearings. I 
have never----
    Mr. Ratcliffe. Let me reclaim my time here. You told the 
OGR Committee that you would produce all of Lois Lerner's 
subpoenaed emails. That wasn't true.
    Mr. Koskinen. No, actually, we produced all the emails we 
had. As I said at that----
    Mr. Ratcliffe. That wasn't my question.
    Mr. Koskinen. No. At the hearing----
    Mr. Ratcliffe. You didn't produce all of her emails. Did 
you?
    Mr. Koskinen. No. At that hearing we had a discussion about 
the fact that I can't produce emails that I don't have.
    Mr. Ratcliffe. And on June 20, when you said the IRS had 
preserved every email, that wasn't true?
    Mr. Koskinen. That was actually--I did not know it, but 
that was not accurate.
    Mr. Ratcliffe. So it is not true. And of course, as 
Congressman Gowdy asked you when you said nothing had been lost 
or destroyed, that was not true.
    Mr. Koskinen. That is right. I thought it was true at the 
time.
    Mr. Ratcliffe. So in light of all that----
    Mr. Koskinen. Pardon?
    Mr. Ratcliffe. In light of those failures, failures to 
retain documents, preserve documents, testify accurately, I 
would hope that you would appreciate why it is legitimate for 
folks to wonder if they should take you at your word that 
erasing--the erasing of the tapes and the destruction of 
evidence was accidental, as you have characterized it.
    Mr. Koskinen. You don't have to take my word. That was the 
inspector general's results after a year of investigation.
    Mr. Ratcliffe. Yeah. Let me stop you there. Because you 
have talked about, about how the Department of Justice and how 
the IG have investigated that and how they have backed you up 
with respect to it being accidental. But the bad news for you, 
commissioner, is that being cleared by the Department of 
Justice in this Administration unfortunately doesn't carry much 
weight with the American people anymore, not since the attorney 
general started handing out get-out-of-jail free cards to Obama 
administration officials like most of us hand out candy on 
Halloween.
    But while we are on the subject, let me ask you this 
question: In the days before that investigation was closed by 
the Department of Justice, you didn't happen to have a 
clandestine but accidental meeting with the attorney general on 
a plane or a tarmac somewhere, did you?
    Mr. Koskinen. Never.
    Mr. Ratcliffe. Okay. Well, I hope you can appreciate why I 
would ask that. Because there is certainly a precedent for that 
type of thing happening.
    Regardless of whether this was accidental, let me concede 
to you for purposes of your answer that this was accidental. It 
seems to me, based on what I have heard from your testimony 
today, that you don't think there should be consequences as a 
result of that. You know, for ordinary Americans, even if it is 
an accident, let's say someone gets in a car accident, if 
someone dies because of it, there are consequences.
    Now, someone might get charged with manslaughter, they 
might get charged with vehicular homicide, they might get 
charged or they might be sued civilly for gross negligence or 
negligence. The consequences may be criminal. They may be 
civil. But there will be consequences. And that is the way our 
justice system is set up.
    But for you and the folks in the IRS, it seems to me that 
you want a different system and a different set of rules 
where--one where you can say it was an accident, I am sorry, 
just move on. And to that point, let me ask you, since you took 
office to restore confidence and in your words provide 
accountability and spent nearly $20 million to do just that, 
who has been held accountable at the IRS?
    Mr. Koskinen. As I noted, the basic issue has been the 
management mistakes made in terms of identifying people for 
review just on their names. And all of those people are gone.
    With regard to----
    Mr. Ratcliffe. Hold on. Hold on. We are talking about two 
different things here.
    Mr. Koskinen. No, no. Now we are talking about since I have 
been there.
    Mr. Ratcliffe. No, no. I want to talk about, yeah, on your 
watch----
    Mr. Koskinen. Can I explain that?
    Mr. Ratcliffe [continuing]. Targeting officials----
    Mr. Koskinen. Okay.
    Mr. Ratcliffe. All right.
    Mr. Koskinen. I will tell you, on my watch we have ended 
the BOLO list. There is no evidence we are targeting any new 
organizations. We do have three that we suspended we are now 
going to process. Although, one has sued for an injunction to 
keep us from processing. But I would note in terms of the 
overall record, the IG spent a year, and looking at the tapes, 
found 1,000 emails. We produced 1,300,000 pages. So that----
    Mr. Ratcliffe. That is not my question. My question is who 
has been held accountable. So you mentioned that you had 50 
people advising you. Advising you on your watch, during your 
watch, which you have acknowledged there were failures to 
preserve, failures to retain, failures to testify truthfully.
    Have any of those folks been terminated. Has anyone been 
terminated on your watch for those transgressions?
    Mr. Koskinen. No one has made a transgression that I think 
is a fireable offense.
    Mr. Ratcliffe. Has anyone been demoted?
    Mr. Koskinen. No, I am not of--demoted.
    Mr. Ratcliffe. I am not asking for their names. Has anyone 
been demoted?
    Mr. Koskinen. I know a few have left.
    Mr. Ratcliffe. That is not my question.
    Mr. Koskinen. No, nobody's been demoted.
    Mr. Ratcliffe. Has anyone been held accountable? And the 
answer is no.
    Mr. Koskinen. I think that is probably right. Because we 
don't think that anybody consciously or purposely did anything 
to interfere with the investigation.
    Mr. Ratcliffe. Well, we will just have to disagree on that.
    My time has expired. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman, Mr. 
Buck, for 5 minutes.
    Mr. Buck. Thank you, Mr. Chairman.
    Commissioner, welcome. You have been here for three and-a-
half hours now. The lights are hot and I notice that you have 
gone through your water. Do you----
    Mr. Koskinen. Well, I got another half a bottle left. So I 
am all right.
    Mr. Buck. Oh, okay. Okay. Good. Because I have heard about 
dehydration affecting people's judgment. I want to make sure 
you weren't dehydrated today.
    Mr. Koskinen. Thank you.
    Mr. Buck. Okay. And you don't have pneumonia?
    Mr. Koskinen. No.
    Mr. Buck. Okay. Good. I wanted to make sure. There is been 
a lot of talk from the other side of the aisle about due 
process. And I want to make sure that we have the same 
understanding of due process. You went to a great law school. 
You worked for a great law firm. You are well versed in the law 
and understand due process. And I was a Federal prosecutor. I 
worked with special agents from the IRS.
    When they presented a case to me for charging, I didn't 
have to talk to the defendant. I didn't have to re-interview 
the witnesses. The level of due process in a charging decision 
is simply the person charging making a best effort to determine 
whether there is guilt or not. You understand that, do you not?
    Mr. Koskinen. Yes. And that is why, again, I understand the 
process is if the Committee wanted to charge me, they would go 
to the House, get a resolution past authorizing the Committee 
to proceed.
    Mr. Buck. Right. And you would be charged. You would be 
tried by the Senate with the chief justice sitting, and you 
would receive due process on the Senate side. To say that there 
is no due process----
    Mr. Koskinen. My understanding is that that is not true. If 
you look at how this Committee has conducted impeachment 
proceedings historically, the Committee has held hearings. 
There have been witnesses. There have been the right to cross-
examination.
    Mr. Buck. I understand that. But in a charging decision--
the Committee's history is one thing. But in a charging 
decision, the level of due process is based on the judgment of 
the individual or group charging, not the trial. The trial has 
a whole different level of due process than the charging 
decision.
    For somebody to say that you have received no due process 
when you are testifying here, and you have testified in OGR, is 
just not true.
    Mr. Koskinen. Well, obviously, there are grand jury 
proceedings where, in fact, the charge is presented to a grand 
jury that decides whether there is evidence. My understanding 
of the process----
    Mr. Buck. And the defendant has a right in a grand jury 
proceeding to be present?
    Mr. Koskinen. My understanding of the process is 
historically the way the House has dealt the impeachment, and 
the way this Committee has dealt with impeachment, is the 
Committee has done--has a set of preliminary hearings. The 
Committee makes a resolution to the House that the House passes 
authorizing the Committee to proceed with a full investigation 
set of hearings and investigation. And then the Committee comes 
back to the floor of the House with the recommendation which 
would be the charge.
    Mr. Buck. Okay. I appreciate----
    Mr. Koskinen. The charge is not made directly to the House 
floor. The charge comes in response to the Judiciary Committee 
having been authorized to start an investigation, holding the 
investigation, presenting witnesses----
    Mr. Buck. I want to move on.
    Mr. Koskinen [continuing]. And then going back to the 
floor.
    Mr. Buck. We disagree. I want to move on.
    Mr. Koskinen. Well, that is fine. Okay.
    Mr. Buck. You are familiar, I take it, with title 44, 
United States Code section 3103 which deals with retention of 
records. And the people that work for you are familiar with 
this also, are you not?
    Mr. Koskinen. I am not familiar with the statutory issue.
    Mr. Buck. Well, let me read it to you. ``The head of each 
Federal agency.'' Would you agree with me that you are the head 
of a Federal agency?
    Mr. Koskinen. I certainly am.
    Mr. Buck. Okay. ``Shall make and preserve records 
containing adequate and proper documentation.'' You have a duty 
to preserve records that have documentation. Is that your 
understanding according to the archives?
    Mr. Koskinen. According to the archives.
    Mr. Buck. Okay. And those records may contain essential 
transactions of the agency. So that is the type of records that 
you have to maintain are essential transactions----
    Mr. Koskinen. Those are the official records, right.
    Mr. Buck. And you understand that Lois Lerner's emails were 
essential transactions of the agency.
    Mr. Koskinen. Not all of her emails, but a chunk of them 
were surely. Some emails back and forth are not official 
records.
    Mr. Buck. Okay. But her emails were important to Congress 
to determine which were essential and which were not essential. 
Nobody went through the emails before they were destroyed in 
West Virginia to determine what was essential and what was not 
essential.
    Mr. Koskinen. Exactly. The erasure should not have 
happened. It should----
    Mr. Buck. So would you agree with me--that is the statute. 
I have just read you the elements of the statute. Would you 
agree with me that as the head of the Federal agency that you 
violated that statute?
    Mr. Koskinen. No. Actually, I think, as you know, to 
violate a criminal statute you have to intend to violate that 
statute. Nobody in the IRS intended to violate any of the 
statutes. Nobody in the IRS intended to obstruct----
    Mr. Buck. And this is not a criminal statute, sir. This is 
not a criminal statute. There is no criminal penalty associated 
with it. This is the statute that defines what records need to 
be archived and the duties of the head of the agency. Would you 
agree with me that you violated those three elements as I 
described them to you?
    Mr. Koskinen. No. Again, I think you violate it when you 
consciously decide. Did we do it appropriately? Was it perfect? 
The answer is no. We have had an ongoing process with the 
National Archives about--we have an antiquated system--about 
making sure that we are capturing official documents and 
official records.
    Mr. Buck. But you have now filibustered me out of time. I 
can't ask you, but there are strict liability crimes. There are 
other crimes where you don't need to have the intent.
    I would yield to the Chairman.
    Mr. Goodlatte. Without objection, the gentleman is 
recognized for an additional minute if he would yield to the 
gentleman from Ohio, Mr. Jordan.
    Mr. Buck. Yes.
    Mr. Jordan. I thank the gentleman for yielding.
    Mr. Koskinen, these two guys down in Martinsburg, the 
midnight shift guys, were they employees of the IRS or were 
they contracted to work for the IRS, to do work for the IRS?
    Mr. Koskinen. They are GS-4 employees of the IRS.
    Mr. Jordan. They are employees of the IRS. About 90,000 
people work for the IRS. Is that accurate?
    Mr. Koskinen. There were 90,000. We are down to 80,000.
    Mr. Jordan. Okay. 80,000 people. Of those 80,000, how many 
other people in that 80,000 worked the midnight shift?
    Mr. Koskinen. I have no idea.
    Mr. Jordan. I mean, is that--I mean, when I think about 
government employees, I don't really associate, you know, other 
than our military working around the clock, I don't really 
associate folks in government employment working the midnight 
shift.
    Mr. Koskinen. We have a lot of employees working the 
midnight shifts. We have, during filing seasons, regular--our 
systems have to be up and running 24 hours a day.
    Mr. Jordan. Okay. All right. Mr. Chairman, I yield back.
    Mr. Goodlatte. Would the gentleman yield to me?
    Mr. Buck. Yes. I yield to the Chairman.
    Mr. Goodlatte. I thank the gentleman for yielding. I want 
to follow up on that.
    You testified today that you wanted--you waited 2 months 
after finding out that the backup media was recycled before you 
informed Congress, before you informed----
    Mr. Koskinen. That is not correct.
    Mr. Goodlatte. What is correct?
    Mr. Koskinen. What is correct is I waited 2 months after I 
learned of Lois Lerner's hard drive crash. I didn't learn about 
the erasure of the tapes until 2015, long after these hearings.
    Mr. Goodlatte. Okay.
    Mr. Koskinen. There are two sets of issues. One is Lois 
Lerner's hard drive crash in 2011; the other is the erasure in 
Martinsburg, which nobody knew until the IG reported it in 
2015. So what I waited for was I had been advised there had 
been a hard drive crash. What I did was I said we need to then 
look at everybody who communicated with Ms. Lerner in that time 
to see how many of those emails we can capture. And that is how 
we captured 24,000 emails from that time period.
    As I have said, in retrospect--there was no hearing in 
between times, but as--in retrospect, I should have actually 
advised the Congress while we were doing that search.
    Mr. Goodlatte. All right. Thank you very much.
    This concludes today's hearing. Commissioner, you have 
given us a lot of your time. We thank you for attending. I want 
to point out to you that without objection, all Members will 
have 5 legislative days to submit additional written questions 
to you or additional materials for the record. And we would ask 
that you respond to those, and I think it will be in your 
interest to respond to those written questions promptly.
    Mr. Koskinen. I will get to them as quickly as we can.
    Mr. Goodlatte. Thank you. And with that, the hearing is 
adjourned.
    [Whereupon, at 1:37 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
